<html>
<title> - THE NATIONAL TRANSPORTATION SAFETY BOARD'S MOST WANTED AVIATION SAFETY IMPROVEMENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
THE NATIONAL TRANSPORTATION SAFETY BOARD'S MOST WANTED AVIATION SAFETY 
                              IMPROVEMENTS 

=======================================================================

                                (110-47)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 6, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                     U.S. GOVERNMENT PRINTING OFFICE

35-929 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)



                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York               SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)






















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Coyne, James K., President, National Air Transportation 
  Association....................................................    33
Dunham, Gail, President, National Air Disaster Alliance/
  Foundation.....................................................    33
Friend, Patricia, International President, Association of Flight 
  Attendants.....................................................    33
Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, accompanied by John Hickey, 
  Director of Aircraft Certification Services, Federal Aviation 
  Administration.................................................     5
Prater, Captain John, President, Air Line Pilots Association 
  International..................................................    33
Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board, accompanied by Tom Haueter, Director of Aviation Safety, 
  National Transportation Safety Board...........................     5
Voss, William R., President and CEO, Flight Safety Foundation....    33

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    53
Hirono, Hon. Mazie K., of Hawaii.................................    59
Mitchell, Hon. Harry E., of Arizona..............................    61
Oberstar, Hon. James L., of Minnesota............................    65
Salazar, Hon. John T., of Colorado...............................    67

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Coyne, James K...................................................    69
Dunham, Gail.....................................................    77
Friend, Patricia A...............................................    88
Gilligan, Margaret...............................................    98
Prater, Captain John.............................................   128
Rosenker, Mark V.................................................   140
Voss, William R..................................................   160

                       SUBMISSION FOR THE RECORD

Dunham, Gail, President, National Air Disaster Alliance/
  Foundation, response to question from the Subcommittee.........    85
Gilligan, Margaret, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, accompanied by John Hickey, 
  Director of Aircraft Certification Services, Federal Aviation 
  Administration:

  Response to questions from Rep. Moran..........................   114
  Response to questions from the Subcommittee....................   116
Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board, accompanied by Tom Haueter, Director of Aviation Safety, 
  National Transportation Safety Board, response to questions 
  from Rep. Chandler.............................................   155

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   HEARING ON THE NATIONAL TRANSPORTATION SAFETY BOARD'S MOST WANTED 
                      AVIATION SAFETY IMPROVEMENTS

                              ----------                              


                        Wednesday, June 6, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                   Subcommittee on Aviation
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members, staff and everyone in the 
hearing room to turn their electronic devices off or on 
vibrate.
    The Subcommittee is meeting today to hear testimony on the 
National Transportation Safety Board's Most Wanted Aviation 
Safety Improvements. I will give an opening statement and then 
call on my colleague and the Ranking Member of the Subcommittee 
to give his opening statement or brief remarks.
    I welcome everyone to today's hearing on the National 
Transportation Safety Board's Most Wanted Aviation Safety 
Improvements. I have said time and again that although the 
United States has the safest air transportation system in the 
world, we cannot rely on or be satisfied with our past success. 
We must continue to strive for greater success because one 
accident or one near accident is one too many.
    The National Transportation Safety Board has been 
investigating accidents and proposing remedies to avoid them 
since it was founded in 1967. With an overall recommendation 
acceptance rate of approximately 82 percent by the FAA, 
important changes and procedures have been made to improve the 
safety of the traveling public.
    Since 1990, the NTSB has kept a Most Wanted List 
representing the most serious problems facing the 
transportation industry. There continues to be significant 
challenges in aviation safety. The NTSB's Most Wanted List has 
six issue areas for aviation, five of which receive an 
unacceptable response. I am disappointed and concerned as many 
of these issues have been on the Most Wanted List for five, ten 
or even fifteen years.
    For example, runway incursions has been on the Most Wanted 
List since the list started in 1990. While new technologies 
have come on line and are slowly being deployed at our 
airports, serious incursions continue to happen. In an incident 
as recently as January 5th, 2007, at Denver International 
Airport where the NTSB states that two airplanes missed 
colliding by almost 50 feet remind us of the importance of 
runway safety.
    Further, both the General Accounting Office and the 
Department of Transportation's Inspector General's Office have 
also highlighted runway incursions as a safety concern. Yet, 
this issue still remains on the Most Wanted List.
    I am interested in hearing both from the NTSB and the FAA 
why these six issue areas remain on the Most Wanted List, what, 
if any, progress is being made and when we can expect to see 
significant improvements in these issue areas.
    I am also interested in hearing more about fatigue. Fatigue 
is an issue that affects all modes of transportation. Aviation 
is a 24 hour, seven day a week business with demanding work 
schedules. We must do more to ensure that all aviation safety 
professionals are rested and are alert to perform their duties.
    Finally, I would like to point out that Gail Dunham, 
Executive Director of the National Disaster Alliance/Foundation 
is with us today. She represents family members that have lost 
loved ones in aviation accidents. Gail and her group know 
firsthand the pain that results when our aviation system is not 
performing at its highest level of safety possible. She reminds 
us all that we must demand the highest standards of aviation 
safety.
    We must work together to ensure that we continue asking the 
tough questions and issue the even tougher and sometimes costly 
rules to guarantee the highest level of safety for the 
traveling public.
    With that, I again want to welcome all of our witnesses and 
everyone here today, and I look forward to hearing the 
testimony of our witnesses.
    Before I recognize the Ranking Member, Mr. Petri, for his 
opening statement or comments, I would ask unanimous consent to 
allow two weeks for all Members to revise and extend their 
remarks and to permit the submission of additional statements 
and materials by Members and witnesses.
    Without objection, so ordered.
    At this time, the Chair recognizes the Ranking Member, Mr. 
Petri, for his opening statement.
    Mr. Petri. Thank you, Mr. Chairman.
    Our aviation system is the largest and safest in the world. 
Commercial aviation is also seeing the highest safety record in 
its over 100 years of existence. This remarkable record is the 
result of hard work by the safety officials at the FAA in 
cooperation with the National Transportation Safety Board and, 
of course, of the aviation community.
    According to the FAA during 2004 to 2006, the average 
passenger death rate has fallen by some 90 percent from the 
average rate just 10 years. While no loss is acceptable, this 
remarkable improvement in passenger safety should be remarked 
upon. Certainly, to remain the leader of aviation safety 
worldwide and protect the lives of those who travel by air, we 
need to remain ever vigilant in our efforts to mitigate ongoing 
and emerging safety hazards.
    Each year since 1990, the National Transportation Safety 
Board has issued an annual list of its most wanted safety 
improvements to draw attention to safety issues that the Board 
believes will have the greatest impact on transportation 
safety. Through the Most Wanted List, the Board identifies its 
most important safety hazards, makes recommendations for FAA 
action and tracks progress of the FAA's efforts to mitigate the 
identified risks.
    It should be noted that the safety issues included on the 
Most Wanted List tend to be the most complex, controversial and 
indeed costly to address. Additionally, many of the Board's 
recommendations require the development of new technologies or 
operational solutions to safety issues. That is why some of the 
recommendations remain on the list for many years.
    Since the Most Wanted List began 17 years ago, the Board 
has closed 58 aviation safety recommendations. Of those, 44 
recommendations or 75 percent have been closed with an 
acceptable rating by the National Transportation Safety Board, 
and 7 of those were actually classified as closed, exceeds 
recommended action. Some Most Wanted List recommendations are 
rated unacceptable and have remained on the list for several 
years or more.
    While the Board agrees that great progress has been made in 
many of these aviation safety hazard areas, it does not believe 
that the safety issues have been completely resolved. The best 
examples of this are runway incursions and aircraft icing 
issues. So I look forward to hearing from the FAA on their 
progress on these two important safety issues.
    While it is understandable that complex problems take time 
to solve, their potential to result in large scale catastrophic 
accidents means that they need to be urgently attended to.
    I look forward to hearing about the FAA's progress on the 
other safety items on the National Transportation Safety 
Board's Most Wanted List, and I am also interested in hearing 
the views of our witnesses on the second panel regarding the 
processes at the FAA and the National Transportation Safety 
Board.
    I thank the witnesses for appearing today and yield back 
the balance of my time.
    Mr. Costello. The Chair thanks the gentleman. The Chair now 
recognizes for an opening statement the former Chairman of this 
Subcommittee, Mr. Duncan from Tennessee.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    The NTSB has made many good safety recommendations over the 
years and the FAA has, I think, done a good job of trying to 
balance the costs and the benefits but certainly always coming 
down on the side of safety where possible.
    One of the NTSB's most wanted recommendations includes 
improvement of the audio and data recorders on commercial 
aircraft also known as the black boxes. The NTSB's 
recommendations include the requirement for the installation of 
a second set of recorder systems on the aircraft to achieve 
redundancy of what is arguably the most important tool used to 
understand the cause of aviation crash.
    Several Members of this Committee and the House Homeland 
Security Committee and the authorizing committee and the 
Appropriations Committees have supported the implementation of 
this requirement with the inclusion of a deployable or 
ejectable flat data and cockpit voice recorder system as the 
backup system to the currently required fixed recorders. This 
makes a lot of sense to me.
    The deployable system records all required information but 
is designed to survive the crash differently than a fixed 
recorder. One of the deployable recorder's most significant 
benefits is its ability to separate from the aircraft at crash 
impact and float indefinitely on water while sending immediate 
notification to search and rescue crews of its and the 
aircraft's location. This is critically important in the 
aviation environment we live in today particularly for aircraft 
that are used in extended over-ocean operations.
    I could go into this further, but I won't.
    You mentioned, Mr. Chairman, Gail Dunham who is President o 
the National Air Disaster Alliance/Foundation. They have 
recommended this along with many other groups. I think this is 
something that we need to take a very close look at because 
this certainly could have helped in the TWA 800 crash and 
several other aviation accidents over the years.
    So, with that, I will yield back the balance of my time.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentlelady from California, Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman. Chairman Costello and 
Ranking Member Petri, thank you for calling this hearing today. 
I appreciate your skilled leadership during this FAA 
reauthorization process.
    I would also like to thank our distinguished panel of 
speakers and witnesses. Your testimony will help inform our 
decisions as we address an issue of paramount importance to 
millions of American and international travelers.
    So far on this Subcommittee, we have dealt with many 
important topics related to FAA reauthorization. We have 
examined aviation consumer issues and looked at Next Gen. We 
have delved into outsourcing and airport improvement financing. 
These are all integral parts of our Country's air transit 
system. However, none of these is as critical as safety. For 
that reason, this hearing today could probably be one of our 
most important of the year.
    Mr. Chairman, I think most of us have felt the occasional 
pang of fear while flying. Whether during takeoff, landing, or 
during turbulence, flight can be frightening for many people. 
There is very little we can do about the human instinct that 
causes us to react this way. Fortunately, we can do a lot to 
ensure that this fear is unfounded. We do this by making our 
aviation system as safe as possible.
    Some say that flying is already one of the safest ways to 
travel. This is true. It is more than 20 times safer to fly 
than to drive on our Nation's highways. Nonetheless, as we 
reauthorize the FAA, we can and should improve on its safety 
record.
    As Members of Congress, we simply must be sure that 
American aviation is the safest, most secure in the world. 
Dealing with congestion is one way to do this. Upgrading our 
air traffic control infrastructure is another. The Subcommittee 
has already demonstrated a strong commitment to these goals. 
The best way to protect the flying public, however, is to 
follow the recommendations of those who know safety.
    Mr. Chairman, the National Transportation Safety Board 
knows safety. The accomplished and professional people who work 
for the NTSB are experts on this subject. Fortunately, they 
have made it simple for the FAA and for us in Congress by 
issuing six proposals to increase aviation safety right now. 
These six recommendations are our road map to safer and more 
secure skies, but recommendations are empty unless they are 
followed. The NTSB's six safety proposals are no exception.
    I am hopeful the FAA will re-dedicate itself to 
strengthening its safety policies. Only then will the American 
people fly the safest, most pleasant and most secure skies in 
the world.
    Thank you again for your leadership, Mr. Chairman. I look 
forward to listening to today's testimony. I yield back the 
balance of my time.
    Mr. Costello. The Chair thanks the gentlelady and, at this 
time, welcomes our first panel.
    Let me introduce our witnesses here today: the Honorable 
Mark Rosenker, the Chairman of the NTSB, and he is accompanied 
by Mr. Tom Haueter who is the Director of Aviation Safety with 
the NTSB; Margaret Gilligan who is the Associate Administrator 
for Aviation Safety with the FAA, and she is accompanied by 
John Hickey who is the Director of Aircraft Certification 
Services for the FAA.
    Gentlemen and lady, we welcome you here today and look 
forward to your testimony.
    The Chair now recognizes Chairman Rosenker.

TESTIMONY OF THE HONORABLE MARK V. ROSENKER, CHAIRMAN, NATIONAL 
    TRANSPORTATION SAFETY BOARD ACCOMPANIED BY TOM HAUETER, 
  DIRECTOR OF AVIATION SAFETY, NATIONAL TRANSPORTATION SAFETY 
BOARD; MARGARET GILLIGAN, ASSOCIATE ADMINISTRATOR FOR AVIATION 
 SAFETY, FEDERAL AVIATION ADMINISTRATION, ACCOMPANIED BY JOHN 
 HICKEY, DIRECTOR OF AIRCRAFT CERTIFICATION SERVICES, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Rosenker. Good morning, Mr. Chairman, Ranking Member 
Petri and Members of the Subcommittee. Thank you for allowing 
me the opportunity to present testimony on behalf of the 
National Transportation Safety Board regarding the agency's 
Most Wanted List of Safety Improvements.
    Our list of Most Wanted Safety Improvements was initiated 
in 1990 as an additional way for the Safety Board to focus 
attention on a group of safety recommendations selected for 
intensive follow-up.
    The 2007 list includes six issue areas addressed to the 
FAA. The first issue asks the FAA to revise the way aircraft 
are designed and approved for flight into icing conditions. 
More than 10 years after the Safety Board issued these 
recommendations, the FAA has yet to issue any of the 
operational design or testing requirement revisions 
recommended.
    The NPRMs issued in November of 2005 and April of 2007 
reflect good progress but full implementation of the regulatory 
change may still be several years away. The pace of the FAA's 
activities in response to these icing recommendations is 
unacceptably slow.
    Issue area two asks the FAA to implement design changes to 
eliminate the generation of flammable fuel or air vapors in all 
transport category aircraft as a result of the in-flight 
breakup of TWA Flight 800. The FAA has developed a prototype 
inerting system to be retrofitted into existing airplanes at a 
fraction of the industry estimated cost. The system has been 
flight tested by the FAA, and the results indicate that the 
fuel tank inerting is both practical and effective.
    An NPRM was published in the Federal Register in November 
of 2005 to require the installation of the flammability 
reduction system in commercial aircraft. The NPRM closed a year 
ago, and the FAA stated that a rule concerning flammability 
reduction would be issued this year.
    The runway incursion issue has been on the Most Wanted List 
since its inception in 1990. The FAA has since informed 
controllers of potential runway incursions, improved airport 
markings and installed system known as AMASS and ASDE-X that 
alert controllers to potential incursions.
    These systems are an improvement but are not sufficient to 
prevent all runway incursions because the information needs to 
be provided directly to the flight crews as expeditiously as 
possible. The issue is one of reaction time. Too much time is 
lost routing valuable information through air traffic control.
    Until there is a system in place to positively control 
ground movements of all aircraft with direct warning to pilots, 
the potential for this type of disaster will continue to be 
high. It has been seven years since this recommendation was 
issued, yet it has only been in the past two years that the FAA 
has started evaluating technologies that are responsive to our 
thoughts.
    The fourth issue area addresses the need for multiple 
specific improvements to CVRs and FDRs that are essential to 
accident investigation data collection and analysis. Although 
the FAA published an NPRM in 2005, it has been more than 10 
years for some of the recommendations, and we are still only at 
the NPRM stage. Although some aspects of the proposed 
rulemaking are responsive to the Board's recommendations, the 
changes only apply to newly manufactured airplanes, not to both 
newly manufactured and existing aircraft as recommended.
    In addition, while a recent FAA proposal seeks changes to 
the parameters required to be recorded for the Boeing 737, the 
proposed changes will not allow investigators to differentiate 
crew actions from anomalies in the rudder control system.
    The Safety Board has also asked the FAA to require 
redundant CVR and FDR combined recording systems along with the 
installation of video recorders, but the FAA has taken no 
action.
    Issue five asks the FAA to set working hour limits for 
flight crews and aviation mechanics based on fatigue research, 
circadian rhythms and sleep and rest requirements. The laws, 
rules and regulations governing this aspect of transportation 
safety date back to 1938 and 1958 respectively. They are not 
adequate to address today's problems.
    Fatigue continues to be a significant aviation issue today, 
yet little or no regulatory action has been taken by the FAA, 
and they have not indicated any firm plans to take the 
recommended action.
    The last issue on the list asks the FAA to require commuter 
and on-demand air taxi crews to receive the same level of CRM 
training as Part 121 carriers. This recommendation was issued 
as a result of the accident that took the life of Senator Paul 
Wellstone. To date, the NPRM has not been issued, and the Board 
is concerned that the CRM revisions will be delayed as part of 
a comprehensive revision to Part 135.
    In closing, let me say the issues on our Most Wanted List 
tend to be those that are among the most complex and difficult 
to implement. While the FAA has made some progress, we are 
disappointed that there are so many recommendations on the list 
that have not been fully addressed.
    I would be happy to answer any questions.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes Ms. Gilligan for her testimony.
    Ms. Gilligan. Thank you, Mr. Chairman. Chairman Costello, 
Congressman Petri and Members of the Subcommittee, we are 
pleased to appear today to discuss aviation safety because the 
system has never been so safe and there is never a better time 
to focus on how we can continue to improve on our safety 
record.
    Through its recommendations, the NTSB challenges all of us 
to consider every possible step we can possibly take to reduce 
accidents, but the truth is in the recent past we have suffered 
very few major accidents. That is why the FAA and the aviation 
industry working through the commercial aviation safety team 
have spent the last decade establishing safety requirements for 
things like new technology, training and standard operating 
procedures.
    We have reduced the fatal accident rate significantly. The 
results speak for themselves. In the 1940s, we had about 1,300 
fatalities for every 100 million passenger and crew who were on 
aircraft. By 1995, that number had dropped to about 47 
fatalities. The average for the last three years has been about 
4 fatalities per 100 million passenger and crew flying on 
aircraft.
    That accident is not one of fate or luck but an achievement 
that is the result of hard work. In fact, like with medicine 
which addresses public health and safety, we have virtually 
eliminated some major causes of accidents. Just as dedicated 
physicians and researchers have eliminated smallpox and polio, 
this industry has virtually eliminated midair collisions, 
controlled flights into terrain and windshear accidents. I can 
assure you that those accident types will never return as the 
persistent recurring accident types they have been 
historically.
    In those cases, we used a layered approach to address the 
safety risk. We trained flight crews on how to identify and 
manage risk, and we invented and implemented technology. Then 
we tested and provided oversight to make sure training and 
technology were properly implemented and properly performing.
    With this history, I can assure you, the Members of this 
Committee, and the Chairman of the NTSB that we face the safety 
issues we are here to discuss with the same determination to 
find the right solutions.
    Our work on fuel tanks is perhaps the poster child for 
FAA's persistence when faced with challenges. We have issued 
over 100 airworthiness directives requiring redesign and other 
corrective actions to eliminate ignition sources, but we knew 
we would never eliminate all potential ignition sources. When 
experts said we could not reduce the flammability level of fuel 
tanks, FAA began the hard work and research and we invented a 
method to do just that. We have proposed a rule requiring 
reduction of fuel tank flammability and will finalize that 
requirement this year.
    On icing, you just need to watch your nightly weather 
report to know understanding and predicting weather is really 
tough, but we have issued 70 airworthiness directives for 50 
different aircraft models requiring aircraft design changes and 
requiring pilots to exit severe icing conditions. These ADs 
address the operational concerns that the NTSB put forward in 
its recommendations.
    We have developed new rules that will require designers to 
demonstrate how airplanes perform in icing conditions and that 
will assure that ice protection systems activate automatically 
based on moisture in the air and temperature.
    And, yes, we are still working on some really complex 
icing-related problems, but I can tell you that just as we 
addressed controlled flight into terrain and other accident 
causes, we will address the risk posed by these phenomena.
    Icing is another model of how we approached runway 
incursions as well. We have provided pilot training materials 
for general aviation and commercial pilots. We have mandated 
training for maintenance and airport personnel who operate on 
airports. We have begun the Runway Incursion Information 
Evaluation Program so we can collect information from those 
involved in errors and identify root causes.
    We have developed and are implementing technology solutions 
that alert controllers to potential conflicts. We are approving 
onboard aircraft systems that let pilots see where their 
aircraft is in relation to the airport surface, and ultimately 
ADSB, a key technology of the system of the future, will 
provide pilots enhanced awareness in the airport operating 
environment.
    Our scientific understanding of fatigue and its effects 
tell us fatigue is not easily addressed by prescriptive rules. 
Once again, we were faced with developing the solution. We 
started by working with NASA to develop fatigue mitigation 
measures, and this led to requirements for in-flight rest 
facilities for long haul flights as well as instructional 
materials for crew members.
    And, we cannot overlook the importance of personal 
responsibility in the area of fatigue. Everyone involved in 
safety must take a personal commitment to report to work, 
rested and ready to perform their duties. No regulation can 
instill that sense of personal commitment.
    We are ready, Mr. Chairman, to address any of the other 
particular concerns that the NTSB has on its list. I can tell 
you that we are committed as an industry to continue our 
improvement of our safety record. The accident rate serves as a 
barometer of whether we have made the right safety choices, and 
it is pointing in the right direction.
    We will not rest on our laurels. We will address the NTSB 
recommendations.
    I am prepared to answer any questions that the Committee 
may have.
    Mr. Costello. The Chair thanks the gentlelady.
    Chairman Rosenker, let me ask you just a few questions.
    One, I referenced in my opening statement the latest 
incident in January at the Denver International Airport. There 
seems to be a discrepancy between the NTSB's investigation and 
what the FAA reported, and specifically the NTSB indicated that 
Frontier Airline Flight A319, a passenger jet, and a Key Lime 
Air Fairchild Metroliner came within 50 feet of colliding. Is 
that correct?
    Mr. Rosenker. Yes, sir.
    Mr. Costello. The FAA reported that the distance was 145 
feet. Can you explain that discrepancy? I will give Ms. 
Gilligan an opportunity to respond as well.
    Mr. Rosenker. Let me turn that one to Mr. Haueter. It is 
his investigators who do all the technical analysis to be able 
to answer that question.
    Mr. Costello. Mr. Haueter.
    Mr. Haueter. Yes, sir. Looking at the data, both radar data 
and flight data recorder information, we plotted it out and the 
closest distance between the aircraft was in the 50 foot range, 
yes.
    Mr. Costello. Ms. Gilligan, you have heard the testimony 
from the NTSB. Can you tell the Subcommittee why there is this 
discrepancy in reporting 145 feet versus 50 feet?
    Ms. Gilligan. Yes, sir. There are some different 
technologies that are used to estimate that measure, and 
sometimes there are some discrepancies between the two.
    I think more importantly both we and the NTSB identified 
this as a severe event, and we are focused on it from that 
perspective. We would consider the differences in measurements 
somewhat less relevant, given the fact that in either case it 
was an event that needs to be carefully analyzed and fully 
addressed.
    Mr. Costello. Mr. Rosenker, you indicate in your testimony 
that the AMASS system, the Airport Movement Area Safety System, 
is not adequate to prevent serious runway collisions, and you 
mention the ASDE-X but you do not describe in your testimony if 
you think the ASDE-X is effective.
    I wonder if you might comment on both your feeling about 
the AMASS system and its inability to adequately avoid or 
prevent serious runway collisions, and then I would be 
interested in knowing how you feel about the ASDE-X.
    Mr. Rosenker. Yes, sir. Both of these technologies are 
clear improvements and have been tremendous assistance in the 
process of trying to reduce the number of runway incursions 
that occur. The problem, though, is when we have done some 
simulations, we have recognized that you can see an eight to 
eleven second, I would say gap between the time an air traffic 
controller is alerted to a potential runway incursion and the 
time that information is analyzed and communicated directly to 
the pilot so that he can or she can make a change.
    What we believe the appropriate answer for the elimination 
of runway incursions would be direct communications in some 
way, shape or form. Frankly, I must compliment and applaud the 
FAA for the work they have done here in the past two years. 
Things like runway status lights, the ferrous lights, these are 
direct communications to the cockpit.
    We are hoping that, in fact, a decision will be made soon 
so that we can begin the process of eliminating these horrible 
potential catastrophic accidents.
    Mr. Costello. I will have a number of other questions 
concerning other issues on the list, but at this time I will 
recognize the Ranking Member, Mr. Petri, for questions.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I really wanted to start with sort of a more general 
question on the process involved in this. You compiled this 
list, I guess, for about 17 years. Partly, it is a public 
relations thing presumably to create a framework and draw 
people's attention to it.
    But how do you go about using this tool, deciding what 
makes your 10 most wanted, I guess six of which are the subject 
of this hearing today, and what doesn't make that particular 
list?
    Mr. Rosenker. Mr. Petri, I thank you for that question.
    I just so happened to have brought a copy of our Most 
Wanted List. I didn't bring enough for all of our guests and 
all of the Members. If I had a little more money in budget, I 
am sure I could provide that opportunity.
    [Laughter.]
    Mr. Rosenker. But this has been a very, very effective 
device for the NTSB. Our business is not only to investigate 
the accident, find out what happened and make recommendations 
but to advocate for these recommendations because they do no 
good if, in fact, a recommendation is made and it sits on a 
piece of paper or on a shelf somewhere. Safety is only improved 
if, in fact, the recommendations are addressed by the modal 
administrations, and we have got a good record here.
    The FAA has a good record. They would be getting what I 
would characterize as a B. About in the 40 years that we have 
been providing them recommendations, they have adopted about 82 
percent of those. Now, of the 12,600 recommendations we have 
made, 3,700 have gone to the FAA. They are our largest, if you 
will, consumer of our recommendations. So they hear from us 
quite frequently. Again, I would like to see if I could get 
them to get a B plus, perhaps 85, 90 percent.
    But this group of recommendations we put on our list every 
year. The Board meets in a Sunshine meeting to decide which of 
these critical issues are going to be put on our list. We give 
them a color code to be able to understand the status of these 
very important recommendations.
    Sometimes we take them off because there have been 
acceptable responses by our modal administrators or because we 
are just not going to be able to get one through because they 
have said they are not going to do it. It is rare that they do 
it.
    We are very pleased with the success rate of our Most 
Wanted List, and we will keep plugging on it. I can assure you, 
Mr. Petri. Thank you for that question.
    Mr. Petri. Is the list basically reflective of your 
experience in frequency of accidents or types of accidents or 
is it an occasion there is some new technology and you say to 
yourself, well, if they would really deploy this, we could 
avoid a lot of accidents, so that gets up on the list and there 
are other things that, yes, they are a problem, but we can't 
imagine what they can actually do to deal with it, so it 
doesn't get on?
    I am just kind of curious as to how you put this whole 
thing together.
    Mr. Rosenker. There is a combination of factors that go 
into it. Clearly, a high number of accidents would be something 
that would really generate significant interest from our staff 
and the Board members, but there are other what is genuinely 
doable to be able to do something to really impact a particular 
mode.
    Clearly, one of our top ones, and I realize it is not under 
your jurisdiction in this Subcommittee, is positive train 
control. That is number one as it relates to our railroad mode, 
and we are pounding hard on that, and we are making progress.
    As I say, we are very proud of what happens as a result of 
the advocacy work that comes from this list. So I know that the 
FAA continues to receive publicity about a number of these 
issues, and that puts them into perhaps a little more energetic 
mode as opposed to some that may not be quite as visible.
    Mr. Petri. Is there any one particular recommendation that 
you feel probably should be more vigorously addressed than it 
is currently being addressed?
    Mr. Rosenker. Mr. Petri, these recommendations are like our 
children. All of them are very, very important to us.
    Mr. Costello. I thank the Ranking Member.
    Let me follow up on a question, Mr. Rosenker, to the 
Ranking Member's question. While we realize that all of the 
recommendations are like your children, how many of those 
recommendations have been on the Most Wanted List since it 
started in 1990?
    We know that the runway incursion issue has been on the 
list since the very beginning of the list.
    Mr. Rosenker. Yes, sir. Of the aviation or the entire list?
    Mr. Costello. Aviation.
    Mr. Rosenker. Okay. That is a good question here. I never 
calculated it to that point. Fatigue and runway incursion.
    Mr. Costello. While you are looking, it would seem to me 
that if, in fact, the NTSB continues to put runway incursions 
and any other issue on their Most Wanted List since the 
beginning in 1990 that while all are equally important, it 
seems to me that if those issues haven't been addressed since 
1990, that they continue to be important to the NTSB.
    Mr. Rosenker. Clearly, and in some cases as I think Mr. 
Petri pointed out, back in 1990 there may not have been the 
kinds of technologies that are clearly available today. Again, 
I indicated earlier that the FAA is doing an outstanding job of 
testing some direct communications to the cockpit. The question 
we have is: When will you finally implement that type of 
technology?
    Mr. Costello. Thank you.
    The Chair now recognizes the gentlelady from California, 
Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman.
    Mr. Rosenker, which of your six recommendations do you feel 
will be most quickly and easily completed?
    I would expect that, Ms. Gilligan, you would comment on 
that too.
    Mr. Rosenker. I believe probably inerting of fuel tanks is 
probably the easiest one at this point. There are people that 
are doing it right now. The 787 has a system that is being 
designed into it which, in fact, would effectively inert the 
tank.
    There are retrofit systems which, in fact, have been 
developed. Some models of the 74 are being delivered with 
systems which would, in fact, reduce the flammability. Some 
models of the 737 are also being delivered with these same 
systems. So I believe that is one which is just about ready.
    I can't speak for the FAA, but I know. Frankly, I think I 
am sitting one person away from one of the great experts in 
that particular area, and I am sure he will be able to share 
information.
    Another area that I believe we can be doing something 
quickly if a decision is made is that in the area of runway 
incursions. Again, I think the FAA has done a good job of 
experimenting with some very effective systems, and I look 
forward to hearing their comments on that.
    Clearly, some issues as related to the improvement of the 
crew resource management in the 135 operations. They can do a 
relatively simple implementation, given they already have a 
good template in the 121 operations. So those are the ones that 
I believe could be easily accomplished.
    I don't want to forget. I don't want to forget some 
technological capabilities that we would like to see, and that 
would be the video in the cockpits, both in small and large 
aircraft. We say small, meaning 121/135 type of operations.
    We are also talking about the installation of dual--dual, 
that means one in the front, one in the back--combination units 
of both CVR and FDR. We believe that is quite feasible and 
could be implemented at any time.
    So those are just a couple of examples of things that could 
pop right away if decisions are made.
    Ms. Matsui. Ms. Gilligan, would you comment?
    Ms. Gilligan. Yes. Thank you, Congresswoman Matsui,
    First, I want to make a clarification. I think it is 
important to remember that while some of these topics are on 
the Most Wanted List for a period of time, FAA and the industry 
have taken many, many steps to address them over that time.
    For example, in icing, as I mentioned, we have issued a 
number of airworthiness directives that specifically addressed 
known risk both in terms of aircraft design and in terms of 
actions that pilot crews should take in response to severe 
icing. We are following that up then with additional work in 
terms of technology and some additional recommendations that 
the Board has made.
    But, in fact, a number of recommendations in each of these 
categories have already been closed acceptable by the Board as 
we and the industry work our way through these complex issues.
    Having said that, I think that we have a lot of work going 
on in all these areas. I agree with the Chairman that we are 
pushing hard on fuel tank flammability. As I mentioned in my 
opening statement, first we had to invent that technology. Many 
of the Board's recommendations begin with the words, develop 
and implement. So the Board acknowledges that these are complex 
areas where fundamental research work often times needs to be 
done before we can actually address the risk in a comprehensive 
way.
    But I think in all the areas we have activities underway 
that are addressing what the Board's intent was, and we 
continue to move forward on those.
    Ms. Matsui. I yield back.
    Mr. Costello. Thank you.
    Let me follow up since you mentioned, Ms. Gilligan, about 
the fuel tank issue. I understand that the FAA has taken a 
layered approach, and I wonder if you might explain that for 
Members of the Subcommittee.
    Ms. Gilligan. Certainly, Mr. Chairman, and I would ask Mr. 
Hickey to join in because he has done a lot of this work 
himself.
    But as I mentioned, we started first with identifying 
potential ignition sources. That was always the original design 
intent, that we would eliminate ignition sources, but that work 
showed us, proved to us that we may never know all of the 
potential ignition sources. Because of that, we had to take 
this layered approach to also address fuel tank flammability.
    John, if you would give some details on both the ignition 
source as well as the tank.
    Mr. Hickey. Mr. Chairman, the level of risk that existed 
prior to TWA 800 simply has been cut to a phenomenally low 
percentage. Through the actions of the airworthiness 
directives, over 100 of them, we have virtually eliminated all 
known potential ignition sources in the existing fleet today. 
Airplanes are being designed today with the knowledge of TWA 
800, and all of that is sort of a point in the past.
    The flammability reduction is an area that has been the 
most difficult, one of the most difficult technology issues we 
have had to deal with in any of the safety things, I think, we 
have been confronted with. The problem was it is not that a 
system can't exist. As many of you know, military and other 
sort of industries have those kinds of technologies, but to 
take a system like that and put it on a commercial airplane 
operating 10, 12, 14 hours a day is a very, very different 
scenario.
    We chartered two groups of world class experts, not just 
FAA, not just industry. We had international experts with very 
world-renowned reputations on their own. They recommended to 
the FAA back in 2001 that the cost of such a system would be 
approximately $20 billion.
    At that point, the FAA did not walk away from this issue, 
and we began to refute and challenge and demonstrate ourselves 
all the individual components that make up a flammability 
reduction system. We were successful at that a couple years 
later, and we are in the final process of finalizing that.
    But I would like to echo my colleague, Mr. Rosenker, that 
we are not just waiting for this rule. We are already beginning 
to deliver airplanes with these systems. All airplanes coming 
out of Washington State from the Boeing Company are all wired 
and ready for these systems when the rule goes into place. Of 
course, we have had conversations with the other manufacturers, 
and I think they are ready when the rule goes final as well.
    So I think the safety level today of fuel tanks is 
considerably different than it was 10 years ago.
    Mr. Costello. Ms. Gilligan, when should we expect the rule 
to come forward from the FAA?
    Ms. Gilligan. The Administrator has committed that we will 
complete this rule by the end of the year, and we are committed 
to that schedule.
    Mr. Costello. Thank you.
    The Chair now recognizes Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Chairman Rosenker, I am going to follow up. I think you 
responded either to the Chairman or the Ranking Member about 
the direct alerts to the pilot regarding runway incursion 
operations which are now under positive control by the air 
controllers.
    If alerts are put directly into the cockpit, would that not 
invite a potential that the pilot may inadvertently turn into 
another hazard about which he is not familiar or am I being 
overly paranoid?
    Mr. Rosenker. Well, sir, I wouldn't call that paranoia. I 
think it is a good question.
    Clearly, procedures are already in effect on what to do 
when you must go around. We saw that successfully occur in the 
first Denver accident. We believe that more information in the 
cockpit gives the pilots a better opportunity to make the right 
decisions.
    Runway status lights are a clear--a clear--signal to a 
pilot, even though potentially a mistake may have been given to 
clear an active runway. All of the technology is telling those 
runway status lights that there is an occupied runway or about 
to be an occupied runway and that that pilot should stop his 
aircraft. You will see a light. It will stop you. It will tell 
you to stop.
    You then may ask the question again to the air traffic 
controller: do you really want me to do this? At that point, 
the air traffic controller may say, no, I don't, thank you for 
that call.
    So I think we will do more in these kinds of signals than 
we will have any problems.
    That is a good question, sir. Thank you.
    Mr. Coble. That does not sound unreasonable to me.
    Ms. Gilligan, how does the FAA involve the aviation 
community when responding to the NTSB's recommendations?
    Ms. Gilligan. Congressman, generally, we outline to the 
Board how we intend to address their recommendation. Most 
often, that will require rulemaking or other kinds of 
agreements to be reached that involve the industry.
    After we have outlined our approach, then we work closely 
with the industry through a number of either aviation 
rulemaking committees or other advisory groups in order to make 
sure that we have a common approach to the NTSB 
recommendations. We work very, very closely with industry and 
with our international partners to make sure we harmonize the 
actions that we take across the industry.
    Mr. Coble. Now, when I say aviation community, I am 
including commercial. I am including private, general aviation. 
Is that your read as well?
    Ms. Gilligan. Yes, sir. Obviously, depending on what the 
recommendation is, sometimes it involves one community more 
than others, but we always involve both the general aviation 
and commercial industries as we go forward with rulemakings or 
policy changes as a result of NTSB recommendations.
    Mr. Coble. I thank you for that.
    Let me ask you this, Ms. Gilligan. It has been in excess of 
a decade now since the TWO Flight 800 accident which crashed as 
a result of a fuel tank explosion, you will recall. What has 
been the progress of the development of fuel tank inerting 
systems and what is the deployment schedule of such systems?
    Ms. Gilligan. Congressman, I think we have made outstanding 
progress. As Mr. Hickey described, first again, we had to 
invent the solution. This was not an off the shelf kind of a 
solution when the Board first recommended that we pursue this. 
In fact, it was FAA engineers and FAA scientists who developed 
the system that we believe can address fuel tank inerting.
    We have proposed a rule to require the reduction of 
flammability in a fuel tank. You could use the inerting system. 
There may other technologies in the future. We wanted to leave 
the rule open to that. We will be going final with that rule 
this year, so we will mandate that kind of equipage within the 
fleet. We are making great progress.
    Mr. Coble. Anybody else want to weigh in on that?
    Mr. Hickey. Sir, the thing I would add is while that rule 
is working its way and there will be an implementation phase, I 
would like the Congressman to know that we are also taking 
measures in an interim period. We are working with the airlines 
to promote use of equipment at the gate area that would allow 
the carriers not to run the auxiliary power unit to keep the 
airplane cool for the passengers. It is that device which tends 
to heat the tanks up which creates the higher and more risky 
environment.
    We are working with the airlines, and I think we have got 
very good success of many of the airlines today using those 
ground equipment to, as an interim measure, keep the risk at a 
lower level until we can get these systems out.
    Mr. Coble. I thank you for that. It is good to have you all 
with us.
    Mr. Chairman, I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Ms. Gilligan, in your testimony you talked about the multi-
pronged approach to icing issues, yet the NTSB classifies the 
FAA's response on icing as ``unacceptable because more than 10 
years after the Safety Board issued these recommendations, the 
FAA has yet to issue any of the operational design or testing 
requirement revisions recommended.''
    Would you please explain what the multi-pronged approach is 
that the NTSB finds unacceptable?
    Ms. Gilligan. Yes, sir. We have taken a number of actions 
initially through airworthiness directives which, as you know, 
are a tool we can use to address a known safety concern. Using 
airworthiness directives, we issued design changes as well as 
training information to pilots.
    Mr. DeFazio. You have issued design changes on aircraft for 
icing?
    Ms. Gilligan. Yes, sir, through the airworthiness 
directives.
    Mr. DeFazio. Future design?
    Ms. Gilligan. No, sir. Airworthiness directives apply to 
the existing fleet, and I can have Mr. Hickey go through some 
of the specific airworthiness directives related to icing that 
we have issued if that would help.
    Mr. DeFazio. That require design changes?
    Mr. Hickey. Yes, sir, a number of our airworthiness 
directives require the airplanes' operating speeds to be 
increased to give protection. We have required in some cases to 
have design changes to the stall warning systems. This is a 
warning system that tells the pilot he is going too slow. We 
have had some design modifications that add additional perhaps 
steps on the airplane to give the pilot better visual cue 
before he does a takeoff.
    We have issued over 70 airworthiness directives that direct 
either a change to the airplane configuration whether it is to 
the design or the airplane's operating process or even for the 
pilot in the way he operates the airplane as if it was an 
operating rule.
    If I may say, the difference is while we have addresses 
these 70 ADs, they are equivalent in my view to the NTSB's 
recommendation which would be done in a general rulemaking.
    Mr. DeFazio. Mr. Rosenker, would you care to respond to 
that? They say they have taken care of the problem here.
    Mr. Rosenker. Well, they are taking care of part of the 
problem. We would agree with that. But I would like for the 
detail of this to my Director of Aviation Safety, Mr. Haueter.
    Mr. DeFazio. Mr. Haueter?
    Mr. Haueter. Yes, we agree that they have been addressing 
the problem one airplane at a time as has been discovered 
through accidents and incidents. Our recommendation is more 
broader, to look at developing technologies for supercool 
liquid droplets, drops going on generically for the whole fleet 
for future designs. That is the basic difference.
    Mr. DeFazio. You are saying we are back over here in the 
Tombstone mentality. When we lose a plane and we find out it 
was due to icing, then we deal with that type, that problem, 
and we are sort of dealing it with it that way.
    But you are saying there may be an undiscovered problem. We 
are skating on this, not to make a bad pun, and you are worried 
that a more generic rule should be published and more done to 
prevent the next incident after which we would put out another 
design or operational change.
    Mr. Haueter. We would like to see a generic rule that 
addresses the whole fleet, both those currently in service and 
those in the future.
    Mr. DeFazio. Okay. I sort of see a pattern here, and it is 
a concern I have had for a long time which is what constitutes 
a meaningful response by the FAA to NTSB recommendations? We 
have changed statute a bit to have the most wanted and that.
    Mr. Rosenker, do you think we need to go further and maybe 
you should look at this in the FAA reauthorization, that 
somehow getting a more meaningful response than one that is 
sort of staged? You don't just sort of you make your 
recommendations, and then 10 years later you come forward and 
tell us what hasn't happened, but you actually have interim 
responses or progress reports or something. Could you address 
that?
    Mr. Rosenker. Yes, sir. Let me first say again the FAA and 
the NTSB are partners in trying to make sure that we make a 
safe industry even safer. They are getting about 82 percent of 
what we want. I am challenging my colleagues to go from 82 to 
85 to 87 to 90 percent.
    Mr. DeFazio. Right. What would get us there, I guess is the 
question.
    Mr. Rosenker. Yes, sir, exactly.
    Mr. DeFazio. We know there is pressure from the industry 
saying oh, my God, no. That would cost money. We put in. We 
have to do these redundancies. We have to retrofit planes for 
recorder systems that don't have a separate bus and an 
electrical system for it. So, gee, you will have to wait until 
the next generation of planes 25 years from now to do that.
    I mean those sorts of things.
    Mr. Rosenker. Many of these things are financial in nature. 
Others are a political will to do what we would characterize as 
the right thing in a timely manner.
    But, again, I believe the people of the FAA are good, very 
committed people to safety. All I would like to see and my 
colleagues would like to see is a more timely response in many 
of these recommendations because many times we all get to the 
same place which is an ultimate implementation of the 
recommendation. Unfortunately, sometimes it is just what we 
believe takes too long.
    Mr. DeFazio. Right. My time is expired, but I would just 
reflect back to the seat spacing requirement for over-wing 
exits which I started on and the NTSB started on after the 
Manchester incident, and I believe it was about seven years in 
the U.S. I took three months in Great Britain. It is my concern 
that we somehow be more responsive.
    We did strip. After the ValuJet accident, I managed to 
strip out most of FAA's charge to promote the industry with the 
idea you would be a regulator and not a promoter. I think there 
is still some of that element, but I do grant that you are 
saying we are making progress.
    Ms. Gilligan, you wanted to respond. I am sorry. I am just 
about out of time. I thought I saw you reaching for the button 
there.
    Ms. Gilligan. I was ready in case you were asking me 
something.
    [Laughter.]
    Mr. DeFazio. No, no. What I want to do is I want to help 
the FAA to be more responsive and maybe slightly less 
responsive to concerns expressed by the industry in terms of: 
Gee, yes, it would be valuable to have that flight data 
recorder, but hey, we don't lose that many planes. And, gee, we 
are going to have to retrofit all these planes, and that will 
cost us much money, and maybe there will only be one or two 
planes that go down that we won't know why they went down. And 
gee, we can just wait for the next generation.
    I mean those kinds of things. We want to help you with 
those problems.
    Ms. Gilligan. Yes, sir, I understand that, and I appreciate 
it. I also appreciate the Chairman's kind words about the FAA's 
commitment to safety.
    Quite honestly, it is to the Board's credit that all major 
accidents have had a probable cause determination using the 
technologies that were available when those accidents occurred. 
So while we do agree there is room for improvement in recorder 
technology and we have proposed those improvements and we will 
again go final with those rules, the Board has been outstanding 
in being able to investigate the accidents with FAA and 
industry help so that we do understand what happened and we are 
able to correct those errors that we did not understand before.
    I just want to reiterate that even while these 
recommendations may remain open for a period of time, FAA and 
industry are working throughout that time period, and we are 
doing things like enhanced training and providing pilots 
additional information on how to handle whether it is icing or 
other kinds of conditions. I think the Board would acknowledge 
it is not that we stand still for 10 years. We work through 
that time period and ultimately, if we are able, actually then 
invent the technology that takes us to that next step.
    Mr. DeFazio. Thank you. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman from Oregon 
and recognizes the gentleman from Georgia, Mr. Westmoreland.
    Mr. Westmoreland. I want to turn a little bit maybe to more 
of a civil aviation than the commercial aviation that the focus 
has been on here.
    Ms. Gilligan, are you familiar with the term counterfeit 
aircraft?
    Ms. Gilligan. Yes, sir.
    Mr. Westmoreland. As a general rule of thumb, would you 
agree that counterfeit aircraft pose a safety risk both to the 
occupants of the plane and to people on the ground?
    Ms. Gilligan. Sir, if I could, counterfeit aircraft is not 
sort of a term of art, as we would call it, that we use in the 
industry. I assume you are referring to aircraft which may 
contain either unapproved parts or an aircraft where the full 
documentation for the aircraft can't be established in order to 
assure that all the airworthiness requirements have been met. 
Is that?
    Mr. Westmoreland. Well, what does counterfeit aircraft mean 
to you and what specific guidelines does the FAA have as far as 
what makes an airplane counterfeit?
    Ms. Gilligan. Again, I don't believe the term, counterfeit, 
is a term that we have used.
    Mr. Westmoreland. What term do you use?
    Ms. Gilligan. But I can certainly look into it.
    Mr. Westmoreland. What term do you use?
    Ms. Gilligan. Quite honestly, I am not sure what concept 
you are trying to pursue.
    What we do have are aircraft that must meet certain 
standards, and when they do, they get an airworthiness 
certificate. If there are elements of the aircraft that are not 
appropriate, that are either unapproved or again we can't 
document that, in fact, the aircraft is airworthy, then it is 
not airworthy. Counterfeit is not really a term that we use in 
that context.
    Mr. Westmoreland. So if a plane had been issued an 
airworthiness certificate and a data plate from the FAA, would 
that be a counterfeit airplane?
    Ms. Gilligan. Mr. Westmoreland, I think I am familiar with 
the particular case that you are referring to. Depending on the 
basis on which----
    Mr. Westmoreland. Just answer the question. It is very 
simple. If the FAA issued an airworthiness certificate and a 
data plate to an aircraft, is that aircraft counterfeit?
    Ms. Gilligan. If the facts underlying the issuance of those 
certificates were accurate, then the aircraft would be 
airworthy. If there is some question that arises after the 
certificate is issued, then we would pursue that to determine 
if all the airworthiness requirements have been met.
    Mr. Westmoreland. Are you familiar with the term harvested 
aircraft?
    Ms. Gilligan. No, sir.
    Mr. Westmoreland. Could you find out if there is any 
definition that the FAA may have for the term, harvested 
aircraft?
    Ms. Gilligan. Sure, certainly.
    Mr. Westmoreland. What does imminent hazard to safety mean 
to you?
    Ms. Gilligan. It is a term that we use to determine whether 
or not we need to issue something like an airworthiness 
directive in order to address a known safety of flight issue.
    Mr. Westmoreland. So if the FAA issues a ferry permit for 
an aircraft it deems to be an imminent hazard to safety, then 
would you have a problem with that?
    Ms. Gilligan. Well, again, I would need to understand the 
facts. There are times when we issue ferry permits for aircraft 
that do not meet all the airworthiness requirements so that the 
aircraft can be taken to a location where proper work can be 
done. And so, again, I would need to understand the facts.
    Mr. Westmoreland. Where proper work can be done?
    Ms. Gilligan. If that is what is necessary.
    Mr. Westmoreland. To repair the aircraft?
    Ms. Gilligan. Whatever the basis for issuing the ferry 
permit.
    Mr. Westmoreland. But you would issue a ferry permit and 
send out a pilot to fly a plane that had imminent hazard to 
safety?
    Ms. Gilligan. I don't know if a ferry permit is issued with 
that particular phrase. I do know ferry permits can be issued 
when the aircraft does not meet all of the airworthiness 
standards. It is issued with certain limitations to address 
those risks and usually issued for the purpose of getting the 
airplane to a place where it could be fixed.
    Mr. Westmoreland. If an airplane had an airworthiness 
certificate, then at some point in time it was airworthy.
    Ms. Gilligan. Someone found it to be airworthy. They may 
have made a mistake.
    Mr. Westmoreland. Since 1988, do you know how many aircraft 
have been deemed counterfeit--I will just use that term--by the 
FAA and seized by the Government?
    Ms. Gilligan. No, sir, I don't.
    Mr. Westmoreland. Could you find out for me?
    Ms. Gilligan. We can try.
    Mr. Westmoreland. Also, if you would, while you are looking 
for that information, could you also find out for me of those 
planes that were seized, how many of those forfeiture cases 
have been dismissed and what happened to those aircraft after 
the forfeiture cases were dropped?
    Ms. Gilligan. Certainly, we will see what we can find out.
    Mr. Westmoreland. Thank you.
    Just in the brief time I have left, Mr. Hickey, you issue 
the airworthiness certificates?
    Mr. Hickey. My organization does, sir. Yes, sir.
    Mr. Westmoreland. Your organization does. Are you familiar 
with the term, counterfeit?
    Mr. Hickey. Not in the way you are using it, sir.
    Mr. Westmoreland. So what would you call it?
    Mr. Hickey. Again, I look at airplanes through their 
airworthiness certificate and whether they have all approved 
parts or not. I am not familiar with an official terminology 
called counterfeit, sir.
    Mr. Westmoreland. But an airworthiness certificate should 
indicate that the plane is airworthy?
    Mr. Hickey. As Ms. Gilligan indicated, it did at one 
particular point in time, at the time it was presented to the 
FAA and with the facts known at that time, that is correct, 
sir.
    Mr. Westmoreland. A data plate would be issued from your 
office also?
    Mr. Hickey. That is correct, sir.
    Mr. Westmoreland. Okay, thank you.
    No further questions and I yield back.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman and Ranking Member and 
thanks to all of our witnesses.
    Chairman Rosenker, the FAA earlier this week released data 
revealing that the level of flight delays during the first four 
months of this year have been the worst on record. This is 
particularly troubling in New York, home of the top three worst 
all-time records of all major U.S. airports.
    Stewart Airport in my district is poised to alleviate some 
of that congestion when the Port Authority assumes control of 
its operations in the near future. With the increased level of 
traffic, there will undoubtedly be need to have more bodies in 
the control tower to successfully, efficiently and safely take 
on the increased number of operations.
    Currently, Stewart has a contract tower. Do you think that 
the NTSB fatigue recommendations should be implemented at 
contract towers in the same way they are implemented in other 
towers and do you believe that such an implementation will take 
place?
    Mr. Rosenker. Clearly, anyone who is involved in the 
controlling of aircraft, whether they be contract or whether 
they be FAA employees, we believe should have the appropriate 
rest, scheduling should be done in a scientific manner, and be 
competent and alert to do the work, whether it is contract or 
whether it is government employees.
    Mr. Hall. Ms. Gilligan, did you want to respond?
    Ms. Gilligan. Certainly, sir. The air traffic organization 
is looking very closely at the Board's recommendations. The 
schedules that FAA has been implementing up until now were 
negotiated agreements with the controller union, and we will be 
working with the union as well as we review the NTSB 
recommendations.
    At this point, I have not heard discussion of whether or 
not it would be applied to contract towers, but as the Chairman 
suggests, certainly as safety professionals, what we look at is 
whether or not an issue exists and how to address it throughout 
the industries. So I would expect that contract towers would 
gain the benefit of whatever changes FAA makes as a result of 
the Board's recommendations.
    Mr. Hall. That makes sense.
    Ms. Gilligan, I want to ask you also, you state in your 
testimony that no regulatory scheme can instill the personal 
commitment needed to manage fatigue.
    In 2005, the Part 135 industry participated in the Aviation 
Rulemaking Committee and developed a number of proposed 
recommendations including a significant change in the 
industry's flight duty and rest rules. What are these 
recommendations and when does the FAA expect to initiate the 
rulemaking process based on these recommendations?
    Ms. Gilligan. Actually, sir, that committee made about 140 
recommendations for improvements to the Part 135 regulations. 
As Chairman Rosenker has made mention, what we are trying to do 
is parse those recommendations so that we don't just have a 
huge regulatory project that becomes very cumbersome and 
difficult to get through the process.
    We are starting actually with the recommendations related 
to crew resource management, also a part of the Board's 
recommendations, and that will be one of our first rules. The 
recommendations on fatigue will follow that rule. I don't 
currently have a schedule for when we would take up those 
fatigue changes or those changes to the rules on scheduling.
    The recommendation is actually quite interesting to us 
because the industry recommended sort of three options and that 
operators, depending on what the operating environment is, they 
might pick one or the other, either prescriptive rules as we 
have now or two other options that give a little more 
flexibility but that also allow for perhaps the application of 
the science of fatigue to be more effective. So we will be 
going forward with those proposals, but again I don't have a 
schedule for that particular part of the rulemaking right now.
    Mr. Hall. Thank you.
    Lastly, I would like to ask you if you could explain, Ms. 
Gilligan, the flight that is mentioned in your testimony that 
was just approved for over 16 hours duration using a fatigue 
risk management approach. I am curious what exactly that is. 
Could you explain that, please?
    Ms. Gilligan. Sure, I am glad to. Actually, we are working 
with the International Civil Aviation Organization to look at 
fatigue as an area of risk and determine how we can better 
manage it and mitigate it.
    The schedule that we have approved is for a flight between 
Kennedy Airport and Mumbai, India. The operator came in after 
having worked with experts in the area of fatigue. They also 
had their plan reviewed by an independent expert, and we have 
had it reviewed by our experts at the Civil Aeromedical 
Institute in Oklahoma City. Their plan actually applies a lot 
of what we have learned about how to manage fatigue.
    So they have committed to protect a day of rest before the 
flight. They will actually get their crews in a location and 
protect the day, the rest period before the flight. The 
scheduled rest during the flight will occur during the 
circadian rhythm low that the crew would experience, and there 
is protected rest when they arrive at the other end as well. It 
applies not just to the flight crew but also to the cabin crew.
    That is the kind of approach that we are looking to develop 
with ICAO in terms of managing the risks that can be a part of 
these long term operations, long haul operations.
    Mr. Hall. Thank you.
    I would assume that you are consulting with your unions and 
the workforce on the different aspects, be they pilots, 
controllers, other crew, ground-based crew, et cetera, about 
the same fatigue management.
    Ms. Gilligan. Yes, certainly. We have had a number of 
rulemaking committees to try to address the issue of fatigue, 
and they have always included both the operator and the pilot 
community. We will certainly continue to pursue that.
    Mr. Hall. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair recognizes the gentleman from 
Texas, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. I thank all of you for 
being here.
    Mr. Haueter, I want to talk to you about the famous black 
box that is probably orange. What is the backup system to the 
black box?
    Mr. Haueter. Well, currently, there is two. There is a 
cockpit voice recorder and a flight data recorder. Those are 
the main devices on the aircraft.
    We have asked for a combi-recorder which, combi is both a 
flight data recorder and cockpit voice recorder, one 
effectively at each end of the aircraft so you would have 
redundancy there.
    Mr. Poe. What about using some type of satellite system so 
that you have immediate knowledge of the information that is on 
the black box? We always here, well, we will know something 
when we find the black box.
    Would it be more immediate? Would it be a better safety 
system? What is just your opinion about that?
    Mr. Haueter. That has been discussed for some time. The 
issue we have is the bandwidth in terms of nowadays an aircraft 
with 1,000 parameters, looking at data at eight times per 
second for many of those parameters, trying to ensure we don't 
lose data in the process.
    It has been discussed for a while, and also in terms of 
number of aircraft flying. When you have thousands of aircraft 
in the air, this is a lot of data now being transmitted. So 
far, the people we have talked to, no one has come up with a 
solution to all the technical issues.
    Mr. Poe. They have or have not?
    Mr. Haueter. Not that we have seen.
    Mr. Poe. Ms. Gilligan, I want to talk to you and ask you 
about the air traffic controllers. In your opinion, do you 
think it is the number of air traffic controllers, the number 
of flights, the delays that we all know about, do you think it 
is at a crisis or not, the number of air traffic controllers?
    Because they are all getting grayer. I mean it is the baby 
boomers. They are still air traffic controllers.
    Ms. Gilligan. I am getting grayer.
    Mr. Poe. No offense; I am a baby boomer myself.
    Ms. Gilligan. I am afraid we all are.
    As you know, the agency has a very aggressive plan for 
hiring air traffic controllers in preparation for what may be 
increases in retirements over the coming years. As you also 
know, the hiring of controllers occurred after the strike of 
1980 and 1981, and so there are sort of classes of controllers 
who are coming to the ends of their careers. The agency is very 
active in trying to plan for that, trying to anticipate what 
that level of retirement might be.
    At this point, we are making those staffing numbers. In my 
organization, we have an oversight responsibility for the air 
traffic organization. We are monitoring their plan, and they 
are meeting their plan. At this point, we do not see a crisis.
    Mr. Poe. So you don't think it is a crisis at all?
    Ms. Gilligan. I don't see a crisis now, sir, no.
    Mr. Poe. Thank you, Mr. Chairman. I yield back.
    Mr. Costello. The Chair recognizes the gentlelady from 
Hawaii, Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    I have a follow-up question regarding the management of 
fatigue. There is a lot of research being undertaken on how we 
can manage operator fatigue in all industries including the 
aviation industry. I am sure you are familiar with some of 
this.
    You indicated that you referred to the science of fatigue. 
Now there is technological research being done on coming up 
with ways that we can monitor the individual's fatigue factors 
right there on the spot. Is the FAA open to this kind of 
utilization of this kind of monitoring facilities or 
capability?
    Ms. Gilligan. I mean we are certainly open to it. Some of 
our past research that we funded through NASA included 
monitoring performance, both on the flight deck and off duty as 
well. We have not considered some kind of monitoring of the 
actual operation if that is what you are suggesting.
    Ms. Hirono. The actual operator, so real time. I can 
envision a situation where a person, a pilot, for example, 
flying 15 hours or something, right there on the spot can have 
his or her fatigue factors monitored so that in real time you 
will be able to ascertain as opposed to either preflight or 
that kind of technology or process that you are using now.
    Basically, my question is the implementation of 
technological advances to manage fatigue, is that something 
that FAA is actively interested in and pursuing?
    Ms. Gilligan. Again, we have used that kind of technology 
to try to understand and evaluate fatigue. We have not 
considered requiring crew members to be monitored during the 
course of their operation. Quite honestly, it is an interesting 
thought, and certainly we can consider that, but we have not up 
until now.
    Ms. Hirono. Thank you.
    Ms. Gilligan. Thank you.
    Mr. Costello. The Chair recognizes the gentleman from 
Arkansas, Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    I had a question about the fact that currently large 
portions of the commercial and private air routes are blocked 
off when we have space launches, things like that. It seems 
like with everything that is going on, that the deconfliction 
between air and space is going to increase with time. I guess I 
had some questions about what we were going to do in the 
future, how we are going to manage that as commercial space 
flight by Virgin Galactic and all that stuff comes on board.
    I guess what I would like to know is what the FAA and DOD, 
how they are coordinating the space launches in particular 
right now. Also, I know in Huntsville they are working on 
software programs to minimize the disruptions space launches 
will have on commercial flights. Is FAA coordinating with the 
Army in that regard?
    Then again as the FAA develops the next generation air 
transport system, how is that interfacing? What are we doing to 
make sure that that is going to be up and running and 
appropriate to handle the deconfliction?
    Ms. Gilligan. Congressman, I probably don't have as much 
detail as you might be interested in, and we will be glad to 
supplement the record to the extent that I am not able to 
respond here in the moment.
    But as you know, we do have a commercial space organization 
within the FAA. We do have responsibility both for setting the 
safety standards as well as for promoting the new commercial 
uses of space transportation. The Commercial Space Office 
coordinates closely with our air traffic organization when 
these space launches are scheduled.
    Concerned is probably too strong a word. We are aware that 
as access to space increases, it will have to be properly 
integrated into the national airspace system, and we are 
working to accomplish that. The Commercial Space Office 
coordinates very closely with all parts of the Department of 
Defense in current launching as well as preparing for the 
future. So I do think we have the right interfaces there. I 
don't know that we have all the answers yet.
    Mr. Boozman. In regard to what they are doing in 
Huntsville, are we specifically interfacing with the Army?
    Ms. Gilligan. My understanding is that that is the case, 
but again let me confirm with the Commercial Space Office and 
we will confirm that back to you.
    Mr. Boozman. Good. Thank you.
    Mr. Chairman, with your permission, I have got just two or 
three other specific questions if we can submit.
    Mr. Costello. I would be happy to do that and submit them 
for the record, and we will ask that the witnesses answer your 
questions.
    Mr. Boozman. Thank you, Ms. Gilligan.
    I yield back the rest of my time.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the distinguished Chairman of the full Committee, Chairman 
Oberstar.
    Mr. Oberstar. Thank you very much, Mr. Chairman, for 
holding this hearing and, Mr. Petri, thank you also for your 
participation and splendid efforts that you both invested in 
bringing this hearing about. This is one of the most important 
things we do in aviation and in all of transportation is attend 
to the needs of safety.
    In that regard, the FAA is the premier safety agency for 
aviation in the world. I said that at a hearing a few weeks 
ago. I emphasize it again today. The rest of the flying 
community in the world looks to the FAA to set the standard. 
ICAO has a role, but FAA is the gold standard.
    The role of the NTSB is to make sure the FAA stays at the 
gold standard level because the NTSB's role--and I will say it 
again--is normative, not measured by benefit-cost analysis 
which is the role of regulatory agencies, operating agencies, 
but the role of the NTSB is to set the standard and then to 
measure agencies, modal agencies by how they adhere to that 
standard.
    This goes back to the dawn years of aviation, in 1926, when 
engines had a bad habit of falling off aircraft in flight, 
wings regularly fell off aircraft en route with very bad 
consequences.
    It was an Assistant Secretary of Commerce who thought this 
was terrible for the future of air commerce and advocated 
within the department for rules of safety in manufacturing 
aircraft and operating aircraft and was rebuffed until he 
became Secretary of Commerce. Then in that position, he issued 
rules for aviation safety.
    His name, Herbert Hoover. We don't associate Herbert Hoover 
with a lot of good things in history since he was either the 
inheritor of or the progenitor of the Great Depression, but he 
saw the need for safety in aviation maybe not for the 
individual benefit of pilots. I think he was just at the dawn 
of passenger travel in aviation. But he saw the need for 
safety, and he insisted that there be a government role to 
regulate safety and set standards.
    NTSB is the inheritor as is the aviation safety function of 
FAA.
    Now you have set forth several key points: incursions, fuel 
tank flammability, recorders, cockpit resource management 
training and fatigue and others, but I want to deal with that.
    Incursions, Mr. Rosenker, Chairman, thank you very much for 
your vigorous pursuit of the role of NTSB and to all your board 
members who have taken their responsibilities with great 
seriousness.
    You have labeled unacceptable the FAA response on runway 
incursion. Runway incursion is one of the most important 
aviation safety sectors in the world. Controlled flight of a 
terrain outside the United States is the number one cause of 
fatalities, but in the U.S. and elsewhere, incursions. There is 
a range of technology now available.
    Why, Chairman Rosenker, is FAA not responding in an 
acceptable manner to the Board's recommendations?
    Are they, as in the early days of technology to avoid in-
flight accidents, waiting for the next perfect technology or 
what is it?
    Mr. Rosenker. Sir, I hate to speak for my colleagues. I am 
confident that they will be able to respond for themselves.
    But I said earlier and I will say it again. On behalf of my 
colleagues at the Board and the staff, we appreciate very much 
the work in the past 24 months that has been done to try to 
begin the process of eliminating runway incursions.
    They have created some technologies that in fact they have 
experimented with and appear to be working extremely well, one 
of which is located in Dallas, another up on the West Coast 
called the ferrous lights. The runway status lights are the 
ones in Dallas, and I believe they are getting ready to do 
another experiment in San Diego with the runway status lights.
    Now, again, these are technologies which are incorporated 
into the technologies they are already using, AMASS and ASDE-X, 
but what this technology will do is give a direct warning, a 
direct communication to the cockpit crew so that they can act. 
Eight to eleven seconds of potential gap before information is 
passed to the cockpit crew could prove to be catastrophic.
    So it is not as if we are disappointed in what has happened 
so far. Again, we would have liked to have seen a much more 
expeditious implementation of our reg except that at this 
moment, in the past 24 months, it seems like we have come to 
some sort of stop in the process in that we are looking for a 
decision, and we believe that the technologies which they have 
shown so far appear to be very, very good and can begin the 
elimination of these potential catastrophic consequences.
    Mr. Oberstar. Thank you.
    Ms. Gilligan, Mr. Hickey, what are your responses?
    Ms. Gilligan. Mr. Chairman, as Chairman Rosenker indicates, 
we have been testing lighting systems, a couple different kinds 
at a couple different locations, and we have demonstrated what 
we believe are two important things. One is that they work, and 
second is that they do not have an unintended consequence of 
creating additional burden for either the flight crew or the 
controllers.
    As you know, when we introduce technology, we want to be 
sure we are not fixing one problem but introducing some new or 
unidentified risk, and we do see that the lights will work and 
that they don't add some additional risk.
    We are taking those programs through the acquisition 
process. There will be a decision made later this year as to 
whether or not and at what level to fund those programs. After 
that, we will have a program for implementation.
    Mr. Oberstar. Are you speaking of the direct pilot warning 
system and the ASDE-X and the ferrous?
    Ms. Gilligan. Right, the runway safety lighting and 
ferrous, those two systems have both been tested, and we will 
pursue acquisition of the appropriate, whichever one is 
appropriate for whatever circumstance.
    As you point out, though, they are related and they rely on 
the ASDE-X technology as well. So we will need to link the 
lighting systems to those locations where we also will have 
AMASS or ASDE-X. So those technologies are coming along.
    Mr. Oberstar. Do you anticipate a rulemaking by the end of 
the year?
    Ms. Gilligan. Well, these would be technologies that FAA 
would acquire that would be at airports, and so it is not a 
rulemaking.
    Mr. Oberstar. The FAA then would not need to issue a rule 
but just implement the technologies. Put it in place.
    Ms. Gilligan. For these technologies, that is correct.
    But I do think something to be mindful is what we are 
really looking for here is to make sure pilots have the most 
situational awareness they can possibly have. In fact, just in 
the spring, the Administrator announced that we have now 
refined our approval process for technology in the flight deck 
that will allow the pilot to know where their aircraft is on 
the airport surface. We have those under review and approval at 
this point.
    Mr. Oberstar. That is from the aftermath of the Kentucky 
accident. Situational awareness on the ground is critical as 
well.
    Ms. Gilligan. Correct, correct. You are right. There are 
applications beyond just runway incursion. The more the pilot 
can be familiar with where the aircraft is on the airport 
surface, then the more assurance he can have or she can have 
that they are in the right location at the right time.
    Recent improvements in technology and how quickly some of 
these technologies are improving allow us to be able to have 
that application for use on the surface. As I said, we have got 
an applicant under review, and we do have airlines that have 
committed to put that technology in their flight deck once it 
is approved. We think that is another key element to addressing 
this issue.
    Mr. Oberstar. There are least 130, 140 airports where the 
on the ground runway/taxiway system is confusing. Has the Board 
looked at that situation and have you made recommendations? Is 
the FAA preparing to respond to improved training and awareness 
for pilots?
    Mr. Rosenker. Clearly, we are very interested in that. We 
are making recommendations we will be presenting in our 
Sunshine Meeting on the 26th of July, the Comair accident that 
occurred in Lexington. So that will be 11 months after that 
accident occurred. We will have a determination of probable 
cause and making recommendations concerning that specific 
accident. But many of these recommendations could apply to 
other situations as well.
    Mr. Oberstar. I want to thank you. I will follow that very 
closely.
    I want to thank NTSB and FAA for the progress they are 
making on fuel tanks flammability although I think that needs 
to be wrapped up with a firm rulemaking.
    Flight recorders, the video recording systems that were 
tested first by Lufthansa in the late 1980s, 1988-1989, is 
something that ought to be revisited. I know the pilots union 
doesn't like that at all, but we can have video in the flight 
deck without allowing it to be used as an enforcement tool, a 
penalty tool but as a training device.
    Your response?
    Ms. Gilligan. Yes, sir. As you know, we have tested a 
number of video cameras just to see, first of all again, do 
they work. Will they really capture in daylight, night time and 
those kinds of things? We have done that testing along with the 
NTSB.
    I think when we consider the commercial fleet, given the 
data recording requirements that we already have, we will have 
to look closely at whether or not we think we need to include 
videos. But as we look at those aircraft that do not have the 
robust data recording and voice recording that some of the 
commercial fleet has, I think we agree that we need to look 
more closely at what is the role for video in some of those 
other aircraft.
    Mr. Oberstar. Thank you.
    Chairman Rosenker?
    Mr. Rosenker. I would agree. Our first objective in our 
recommendation is to get them into aircraft that have nothing. 
At this point, aircraft similar to what happened tragically to 
Senator Wellstone, if we would have had video in that aircraft, 
if it would have been required, some form of either CVR, FDR or 
video, clearly we would have been able to make a more timely 
determination and make recommendations that may not have 
already necessarily been made.
    So that is our primary goal is to get them into the smaller 
aircraft that have nothing at this point.
    Now when you begin to operationally look at those, you will 
have, I believe, enough evidence that everyone will be in 
agreement that these new technologies are going to be extremely 
valuable in the process of accident investigation.
    Those again are never, ever, ever used in any way, shape or 
form other than for accident investigation. We have proven that 
in our FDR, in our CVR categories. Again, they are using FOQUA 
in the FDR. Those are never used for punishment. They are used 
for operational understanding of what happens.
    We believe that this type of protection will be there, and 
we would not like to say in any way, shape or form any of these 
technologies used for anything other than the furtherance of 
safety, not for disciplinary action.
    Mr. Oberstar. Thank you very much, and your reference to 
Senator Wellstone makes a very personal and heartstrings appeal 
and pull for me.
    I want to encourage both FAA and NTSB to continue working 
to fulfill the one level of safety objective that was set over 
a decade ago for Part 121/135, especially the on demand 
charter, not only with dual pilot operations but also with 
single pilot operations. Don't limit.
    Now my final issue and that is fatigue. Help us also since 
the objective of safety and the role of the Board and the role 
of the safety function of FAA is to preempt the next accident. 
We are going to be moving into the new era of aviation with the 
pilots flying beyond age 60. It is going to happen one way or 
the other, either through legislation which I expect we will do 
in this Committee in the reauthorization.
    That raises questions about the twice a year medical exam 
for the pilot in command. Now I question whether that is 
sufficient, twice a year for the pilot in command, twice a year 
navigation motor skills, flight check and simulator. Shouldn't 
it be extended if we are going to extend the years in service 
of pilots?
    Shouldn't that be extended to the first officer? That is, 
right now, the first officer is not required to have twice a 
year medical check, twice a year flight checks, motor skills.
    I think we ought to have a more rigorous assessment, and 
twice a year would seem to me to be a good standard for 
proficiency tests. Putting the first officer in addition to the 
pilot in command through low fuel, hydraulics failure and the 
ability to process, retain and repeat commands from air traffic 
controllers. I think those are very, very critical in-flight 
skills that ought to be tested more frequently for the first 
officer as well as for the pilot in command.
    Ms. Gilligan. If I may, Chairman Oberstar, in the rule that 
we are preparing, we are anticipating or we will propose a 
requirement for the medical review twice a year.
    You are correct. Currently, under U.S. rules, we do allow 
commercial pilots rather than ATP pilots to act as a co-pilot. 
To be consistent with the ICAO requirement however, we will 
propose to have the medical review done twice for any pilot 
over age 60.
    As to the testing, that will actually remain consistent 
with what it is that the airlines currently do. I think as you 
know, under our rules, there are certain prescriptive timing 
for testing, but we also have some programs like advanced 
qualification programs which change those time periods 
somewhat, but we would allow the pilots to continue to be 
tested under the airline training and testing program. At this 
point, we think that will be sufficient.
    Mr. Oberstar. Chairman Rosenker, do you have a supplement 
to that statement?
    Mr. Rosenker. Mr. Chairman, unfortunately, that is not an 
issue that we have studied at the Board nor do we have a 
position at this time.
    Mr. Oberstar. Thank you.
    Mr. Rosenker. Yes, sir.
    Mr. Oberstar. The final question I have is about fatigue. 
There is daily fatigue, and there is cumulative fatigue. Over 
many years, this Committee has grappled with this issue, 
pressed for and enacted legislation eventually on flight and 
duty time.
    The NTSB has repeatedly said that the FAA should set 
working hour limits for flight crews, for aviation mechanics, 
based on research on fatigue, circadian rhythms, sleep and rest 
requirements. In addition, training and flight checks, ferry 
flight, repositioning flights should be included in the crew 
total flight time. Those are your recommendations.
    Now let me transfer that to another mode: railroad. It is 
well known that the operating crew, the locomotive engineer and 
the conductor are subjected to limbo time, time when they are 
neither on duty nor off duty. The railroads have increased the 
amount of limbo time, the number of shifts in which more than 
two hours or more of that time in limbo are visited upon the 
operating crew.
    If it is important enough for aviation, and I realize there 
are differences, that aircraft are five or seven miles in the 
air, no curb to pull over. You have to have much higher 
standards. But the railroad is critical too. You can't stop 
that train on a dime any more than you can stop that aircraft 
on a dime.
    Fourteen hour duty period, ten hours of rest, increase 
flight time to ten hours and so on, we need to visit the same 
requirements on operating crews of train, and I know the NTSB 
has had a number of recommendations on that issue. So I would 
like to have your further thoughts about limbo time in 
railroading as an addition to or extension of the fatigue to 
which operating crews are subjected.
    Mr. Rosenker. Well, Mr. Chairman, I appreciate the 
opportunity to talk about another mode while I am here at the 
same time. I get a two-for, I think, that way.
    Mr. Oberstar. Yes, you do, and we get a two-for.
    Mr. Rosenker. Yes, sir.
    I testified for this Committee to talk about issues such as 
limbo time and crew rest along with positive train control. I 
will get that in one more time wherever I can. That is a 
technological advance which in fact when implemented will begin 
the process of stopping some of these terrible collisions that 
occur on our rails today.
    But when we talk about limbo time, if we can eliminate 
limbo time, that is one element that we believe will 
significantly improve the opportunities for our train crews to 
be rested and alert when they finally come back to work. We 
would like to see that.
    Although we don't call it limbo time in the aviation 
community, there is a loophole that enables, for example, a 
pilot to fly after his eight hours on 121, to fly a ferry 
flight which would go beyond that eight hours and thereby 
perhaps put him into a fatigue situation.
    Mr. Oberstar. Airlines or charter operations will call that 
Part 91.
    Mr. Rosenker. Yes, sir.
    Mr. Oberstar. And escape the responsibility of Part 121/
135.
    Mr. Rosenker. That is exactly right, Mr. Chairman, and that 
is what we believe can be affected, and we have asked for our 
colleagues at the FAA to regulate and to improve and to change. 
I believe that can be done. We hope it is not just done in the 
issue of changes in 135 but a reform that talks about the 
entire fatigue issue as it relates to our air crew members.
    We have also, of course, made recommendations to those that 
deal in the maintenance. We don't want those people in any way, 
shape or form to be working on aircraft when they are fatigued. 
There are a number of environmental issues which in fact affect 
the way they work, and many of these, of course, these 
maintenance workers, are doing their work overnight in some of 
the most difficult sleep patterns and also in some of the more 
challenging environments.
    So we would work. We would like to work with our colleagues 
at the FAA to get those specific changes implemented and 
implemented as quickly as possible.
    Mr. Oberstar. Thank you very much.
    I won't ask Ms. Gilligan to respond to rail questions.
    Mr. Chairman, I thank you and, Mr. Petri, I thank you.
    Mrs. Moore, thank you very much for your patience.
    These are critically important issues, and I spent a good 
deal of my service in Congress in them, and I appreciate the 
opportunity to explore them in further detail.
    Mr. Costello. Thank you.
    The Chair recognizes the gentlelady from West Virginia, 
Mrs. Capito.
    Mrs. Capito. Thank you. Thank you, Mr. Chairman.
    Mr. Oberstar. Sorry, Mrs. Capito. I still think of you as 
Shelley Moore.
    Mrs. Capito. That is good.
    I have a quick question. It is not on the most wanted list, 
but it is something I have wondered about flying a lot in 
smaller aircraft between here and West Virginia, and I think it 
is unsettling to the traveling public and more and more people 
are on flights. I think the flights are much more crowded than 
I have ever seen them.
    When you get on a plane, and they start shifting people 
around or they ask one person to move because of weight or 
balance or get off the plane, it doesn't give you a real good 
feeling to think that removing one person is going to be the 
difference between flying safely and not flying safely. I know 
the accident that occurred in Charlotte was an incident of 
overweight, and I believe that was a turbo. Was that a turbo 
prop plane? I think yes.
    For those of us whom this happens to quite frequently, tell 
us what your perspective is on weight and balance and what 
direction from a safety standpoint the airlines are going on 
this and the FAA.
    Ms. Gilligan. Congresswoman, if I could, I would ask Mr. 
Hickey who is an aeronautical engineer to perhaps try to 
address that issue for you.
    Mr. Hickey. Thank you, ma'am. I guess the initial response 
I would give is I would be comforted by the fact that a person 
was either moved or removed because it shows, I think, proper 
diligence by the flight crew that they take weight and balance 
seriously. All airplanes have a certain sort of envelope in 
which we approve the airplane. We establish that that is its 
safe zone. It is probably never more important than on takeoff.
    While it might suggest to you it is not like riding a bus 
or a train where that typically doesn't happen, in an airplane, 
it is a very ordinary proper function to occur. The margins, 
though, of one additional person or two additional people being 
on an airplane is well, I can assure you, well within the 
margins of safety.
    I think historically as we have seen accidents associated 
with loading, they are egregious, tremendously egregious cases 
where they are way out of whack. One or two people really 
aren't the make or break in that case.
    Mr. Rosenker. If I could make just one clarification.
    Mrs. Capito. Yes.
    Mr. Rosenker. The Charlotte accident was clearly also an 
issue of a filled aircraft that may have had an overweight 
situation, but it was primarily caused by the mis-rigging of an 
elevator, and that really created the opportunity for the 
aircraft not to have been flown properly.
    Mrs. Capito. Could you just clarify what misreading of an 
elevator?
    Mr. Rosenker. That aircraft was in for maintenance earlier 
in the month or six weeks. I can't remember the exact amount of 
time.
    But what had happened is they mis-rigged it and did not do 
a maintenance check on it, and therefore they did not know that 
you could not get full elevator authority out of it. So when 
you could not get the appropriate amount of elevator, when you 
combine that with the weight of the aircraft and the number of 
people that were on the aircraft, that is what created the 
aircraft crashing.
    Mrs. Capito. Thank you.
    I appreciate, Mr. Hickey, and I do feel good when I know 
that people are moving around and there is a lot of attention 
paid to it, to the weight and balance. But knowing that it is 
important, when you watch the cargo go into the back of the 
plane, you start thinking now, how much weight really is on 
this plane? I am sure there are large margins.
    Mr. Hickey. There is.
    Mrs. Capito. But you know there was the whole controversy 
on the average size of an air passenger weight being 160 or 170 
pounds. There was a little bit of controversy on that. Is that 
something that has been readjusted or are you still working on 
that?
    Ms. Gilligan. No, ma'am. We actually issued new guidance 
for operators to use. If they want to use a standard weight, 
they use an FAA weight which we did increase both for the 
individuals as well as for the baggage. If they want to, they 
can actually do a survey of their actual passengers and 
establish their own average weights. But they must do one or 
the other, and we do over see that.
    Mr. Rosenker. We will take a bit of credit for that, and it 
was a timely, very, very timely response by our colleagues at 
the FAA.
    Ms. Gilligan. Thank you, Mr. Chairman.
    Mrs. Capito. On that note, I thank you for your answers.
    Thank you very much.
    Mr. Costello. The Chair thanks the gentlelady and thanks 
our witnesses on the first panel.
    Let me just say that this will not be the last hearing on 
the NTSB's most wanted. We intend to follow up and to hold 
additional hearings. As you have indicated, Chairman Rosenker, 
there has been progress made on some of these issues, but we 
want to make certain that we continue to make progress. I just 
want to assure our friends at the FAA and the NTSB that we will 
continue to monitor these issues, and we will have additional 
hearings in the future.
    With that, I recognize the Ranking Member.
    Mr. Petri. Mr Chairman, I just would ask unanimous consent 
that some questions from our colleague, Jerry Moran of Kansas, 
be allowed to be included in the record and submitted to this 
panel for written response.
    Mr. Costello. Without objection, so ordered.
    Again, the Chair thanks the witnesses and would ask the 
witnesses for our second panel to come forward, please.
    Ms. Gilligan. Thank you, Mr. Chairman.
    Mr. Rosenker. Thank you very much, Mr. Chairman and Mr. 
Petri.
    Mr. Costello. While the second panel is coming forward, I 
would like to make some introductions. One is Gail Dunham who, 
as I mentioned earlier in my opening statement, is the 
President of the National Air Disaster Alliance/Foundation; Mr. 
William Voss who is the President and CEO of the Flight Safety 
Foundation; Captain John Prater who is the President of the Air 
Line Pilots Association International; Ms. Patricia Friend, the 
International President of the Association of Flight 
Attendants; and Mr. James Coyne, the President of the National 
Air Transportation Association.
    With those introductions and we are changing name tags 
around, we will get started as soon as you are seated.
    Mr. Costello. Ms. Dunham, I recognize you if you are ready 
to present your testimony.
    I would ask members of the panel to first note that your 
full statement will be submitted for the record, and we would 
ask you to summarize your statements under the five minute rule
    Ms. Dunham?

  TESTIMONY OF GAIL DUNHAM, PRESIDENT, NATIONAL AIR DISASTER 
ALLIANCE/FOUNDATION; WILLIAM R. VOSS, PRESIDENT AND CEO, FLIGHT 
  SAFETY FOUNDATION; CAPTAIN JOHN PRATER, PRESIDENT, AIR LINE 
      PILOTS ASSOCIATION INTERNATIONAL; PATRICIA FRIEND, 
  INTERNATIONAL PRESIDENT, ASSOCIATION OF FLIGHT ATTENDANTS; 
    JAMES K. COYNE, PRESIDENT, NATIONAL AIR TRANSPORTATION 
                          ASSOCIATION

    Ms. Dunham. Gail Dunham representing the National Air 
Disaster Alliance and Foundation and NADA/F, also NADF. We were 
incorporated by air crash family members 12 years ago. We have, 
unfortunately, thousands of members worldwide: air crash 
survivors, family members, those impacted by aviation 
disasters, aviation professionals and those who share our 
purpose.
    NADA/F is a member organization of the FAA Rulemaking 
Advisory Committee, a member of the Executive Committee, also a 
member of the TSA Advisory Security Committee. We welcome the 
opportunity to work with government and industry to promote the 
highest standards of aviation safety and security.
    Let us assume the following about aviation today: 
Commercial aviation is public transportation. An airline ticket 
is a contract for safe transportation. The cost of safety is 
nil compared to the cost of a disaster. The lives of airline 
passengers are in the hands of the employees who deserve fair 
pay and benefits and adequate rest time to do their job.
    Aviation technology has greatly improved, and there is also 
excellent affordable aviation technology that exists and is not 
being used today.
    The NTSB Most Wanted List is the cornerstone of our 
founding goal: safety, security, survivability and support for 
victims' families. We used to receive an annual status report 
from the NTSB, and it included references as to why the 
recommendations were made and actual progress, sort of 
scientific, technical data on the progress that was being made 
on the recommendations. Today, the NTSB Most Wanted List has 
six recommendations, and it appears that we just don't have the 
substance and the progress being made.
    Three changes in the process which could be helpful to you: 
In 2004, there was a major change. A swat team just deleted 
many of the recommendations.
    August, 2005, the NTSB and FAA decided to delete perhaps 
one of the most important safety recommendations, and that was 
for mandatory child restraints seats for children under the age 
of two. The FAA completed the studies. The FAA Technical Office 
in New Jersey does a terrific job. They already completed all 
of the studies to have the specific seats for the type of 
aircraft. That was done. The TSO was completed in 2000 in order 
to have required child restraint seats, but sadly that TSO has 
languished on someone's desk since 2001.
    The third change in the process is the FAA MAC, the 
Management Advisory Council, which is private meetings of 
aviation management with the FAA Administrator and little to no 
public records of these meetings. The MAC appears to be less 
advisory, and the results imply that it is a council with power 
over FAA personnel and dictates to yes or no on much needed 
safety recommendations. If the FAA MAC is going to continue to 
be this powerful decision-maker, then at least have their 
meetings open to the public and the media, or at least most of 
their meetings.
    Referring to a GAO report about required child restraint 
seats, the FAA has been recommending child restraint seats 
since 1972--this is the last page in my handout--for 35 years. 
We have required child restraint seats in cars for over 25 
years, and we should have required child restraint seats for 
children on aircraft under the age of two.
    There was an FAA study in 1995. I believe it is a flawed 
conclusion. They said that if the FAA mandated child restrain 
seats, that people would drive rather than fly. I don't think 
that is true because people buy seats for their children when 
they are over the age of two and the airlines sell the child 
seats for half price.
    We are asking for Congress to mandate required child 
restrain seats. You do rulemaking. We can do rulemaking through 
the FAA, through the NTSB, but at times it is necessary for 
Congress to get involved in the rulemaking. That usually moves 
it forward much faster.
    Again, the TSO should just be released, I think, to move it 
forward.
    I have a couple thoughts about money, on how to pay for 
these recommendations. Stop the diversion of transportation 
funds. No matter how you fund aviation in the FAA 
reauthorization fund, ensure that every single penny is for 
aviation safety and security. Stop the diversion now of funds 
from the Aviation Trust Fund which is 7.5 percent of the 
domestic airline ticket tax.
    Again, recognize aviation is public transportation, and 
everyone who works for the airlines must give their all. 
Congress should mandate that executive airline pensions become 
part of the airline pension programs, and this would put all 
the employees on an equal footing to put the company first, and 
this would create probably half a billion dollars to benefit 
aviation and to pay for these recommendations.
    We have two pieces of safety recommendations that we are 
asking you--to mandate safe flight for children under two, 
upgraded recorders, suggestions about where the money might be 
located--and I have three things that we are requesting that 
have no cost.
    We are asking you to mandate public hearings for all 
commercial air cargo aviation disasters. Comair/Delta 5191 in 
August in Lexington, Kentucky was the worst aviation disaster 
in 2006, and there is no public hearing scheduled. A public 
hearing provides time for questions, answers and testimony 
under oath. At this time, they are planning a three hour 
meeting to discuss the worst aviation disaster in 2006, and the 
causes of 5191 were the runway incursions under low staffing in 
the tower, perhaps fatigue, complex issues.
    We are asking that you mandate public hearings for air 
crash disasters. Family members are smart. We know the 
difference between a meeting. We know the difference between a 
lecture and an actual public hearing.
    So three recommendations that don't cost money: Mandate 
public hearings, whistleblower protection and I have a thought 
about how to improve the process of moving these NTSB most 
wanted recommendations forward. We need an annual public 
meeting with the NTSB, the FAA and the National Air Disaster 
Alliance and Foundation and our members together at the table. 
Mandate this meeting once a year for public participation to 
continue the pursuit, our ongoing pursuit of aviation safety 
and security.
    Mr. Costello. The Chair thanks you, Ms. Dunham, and 
recognizes Mr. Voss.
    Mr. Voss. Chairman Costello, Congressman Petri and Members 
of the Subcommittee, thank you for the opportunity to discuss 
aviation safety and the NTSB's Most Wanted List.
    The Flight Safety Foundation was founded 60 years ago by 
industry leaders to identify and solve safety issues. Those 
leaders believed industry needed a neutral ground where 
competitors could work together to share information, ideas and 
best practices for safety. We have been working around the 
world to fulfill that role ever since.
    The oldest and most venerable aviation safety tool is 
accident investigation. These investigations identify causes 
that lead to findings and recommendations, and some of these 
recommendations ultimately find their way to the NTSB Most 
Wanted List. The NTSB does this better than anyone in the 
world.
    Objective accident investigations will always be an 
essential part of the safety equation, but today they are only 
part of a more complex picture. Aviation safety professionals 
now have much more to work with. They have adapted a more 
proactive safety management approach. They identify risks and 
prioritize actions by downloading and analyzing data from 
FOQUA. These reporting systems that allow pilots, mechanics and 
others to report problems that would normally go unrecognized. 
Studies show this type of data can give us hundreds of warnings 
before a crash occurs. By protecting this data and acting on it 
early, lives are saved.
    Within this broader context, I would like to comment on 
just several items on the Most Wanted List. The Foundation 
supports NTSB efforts in the area of runway incursion but 
believes the overall topic of runway safety should also be 
addressed.
    We break the problem of runway safety into three 
components: first, runway incursions such as Tenerife; 
secondly, runway excursions such as Southwest Airlines in 
Chicago or the recent Garuda crash in Indonesia; and lastly, 
runway confusion such as was apparently the case with Comair in 
Lexington.
    The runway incursions problem deserves every bit of the 
considerable attention it has received, but analysis shows 
runway excursions present a much larger threat than most had 
assumed. From 1995 to 2006, runway excursions accounted for 
29.4 percent of major jet and turbo prop accidents. These 
accidents typically did not involve mass fatalities and 
therefore received little attention. Nonetheless, the data 
suggest these accidents deserve a closer look.
    The Foundation supports a recommendation regarding human 
fatigue. The aviation industry began setting hourly working 
limits for light crews some three decades ago. Today, it is 
clear such prescriptive rules are sometimes ineffective. 
Fatigue risk management systems based on mature science can do 
a far better job. Fatigue risk management will allow the 
industry to do more with a higher level of safety for the 
public and with a higher quality of life for the people doing 
the job.
    Also, the NTSB Most Wanted List supports the introduction 
of CRM training for the air charter industry. We couldn't agree 
more. In fact, we are leading industry efforts to go further. 
CRM training is a good start, but we know from our work with 
the airlines that an extension of this training, known as 
Threat and Error Management, can make a good thing even better. 
Our corporate advisory committee has embraced Threat and Error 
Management and will promote this concept at thousands of 
corporate pilots over the next year.
    We will not stop there. The next step will be to actively 
promote this type of training along with CRM to the air charter 
community.
    Even though work still needs to be done on the NTSB Most 
Wanted List, the aviation industry has done a remarkable job to 
reduce the number of accidents because over the last decade the 
industry has adopted a more proactive approach that addresses 
risks before they become accidents. This proactive approach is 
based on a foundation of commitment and trust. Trust is a 
difficult thing to maintain.
    The industry and the regulator have been through difficult 
times, and labor relations are strained. The Foundation takes 
no position on political debates, but we do issue one caution. 
Such debates must never be allowed to compromise the free flow 
of safety information in the system because safety 
professionals use this information to save lives.
    This is not just theoretical. Today's low accident rate 
means there are people walking around today who would have 
otherwise died. Unlike the victims of crashes, we can't name 
the survivors, but they are as real as those who perished. If 
we had the same accident rate today as we did in 1996, there 
would have been 30 commercial jet accidents around the world 
last year. Instead, there were 11.
    Perhaps some of us were on those 19 flights that didn't 
crash. We will never know.
    Thank you very much for allowing me to testify. I would be 
happy to take any questions.
    Mr. Costello. The Chair thanks you, Mr. Voss, and 
recognizes Captain Prater.
    Mr. Prater. Good morning, Mr. Chairman, and thank you for 
inviting ALPA to testify before the Subcommittee.
    I am John Prater, President of the Air Line Pilots 
Association representing more than 60,000 airline pilots at 41 
airlines in the United States and Canada. For 76 years, ALPA 
has beaten a drum to improve safety in the airline industry. 
Some have even called us the conscience of the industry. This 
morning, our voice from the flight deck will speak clearly on 
issues of safety.
    Let me begin by saying that ALPA agrees with the NTSB that 
a pressing need exists to provide rational, scientifically-
based working hour limits for pilots engaged in all airline 
operations. Simply put, pilots are tired. One reason we are 
tired is because we are working under antiquated Federal 
regulations developed when airplanes couldn't fly across 
multiple time zones. The industry introduced the first 
passenger jet airliner in the late fifties. It could cover 
about 3,700 miles and required three pilot crew members.
    Today, however, aircraft can cover 12 to 14 time zones for 
more than 16 hours of continuous flight, easily traveling more 
than 9,000 miles, certified to fly with two pilots and 
augmented only when the flight is scheduled longer than eight 
hours. Commuter airplanes have been replaced by jets carrying 
50, 70 to 90 passengers, flying coast to coast. This different 
world requires different rules.
    Unfortunately, current FAA rules do not adequately apply 
known science into pilot fatigue research, circadian rhythms 
and realistic sleep and rest requirements. The lack of a 
defined duty limit in the regulations illustrates our concerns 
perfectly. With an augmented crew, it is legal to fly from the 
East Coast of the United States 16 hours to Asia and then 
immediately fly another 16 hours back to the United States.
    Legal? Yes. Fatiguing? I will allow you to be the judge.
    Federal regulations require airline pilots to receive eight 
hours off between flights. This does not equal rest. By the 
time a pilot finishes up paperwork, catches the airport 
shuttles, checks into the hotel, grabs a bite to eat, showers, 
dresses and leaves in time to get through security the next day 
and conduct another preflight, he or she is lucky to get five 
hours of sleep between flights. That leads to a massive sleep 
deficit and chronic fatigue.
    ALPA strongly urges you to push the FAA to modernize flight 
and duty time regulations and rest requirements for the safety 
of the traveling public.
    Why now? Until the post-9/11 round of bankruptcies, we had 
negotiated contractual safety work rules. Those contract safety 
rules were gutted under threats of Chapter 11 or in bankruptcy 
courts. The Federal aviation regulations that govern maximum 
flight and duty times and minimum rest periods for pilots are 
now the everyday working standard for many U.S. airlines.
    Changing gears, I would like to remind you that the 
ultimate safety net in our industry is the front line employee. 
That is why ALPA believes the Aviation Safety Action Program or 
ASAP should be high on the NTSB's Most Wanted List. It allows 
front line employees to report safety concerns firsthand, 
enabling the industry to ensure safety while protecting those 
same employees.
    Recently, ALPA's air safety representatives met with the 
senior FAA officials and developed new language that will 
improve these programs and encourage additional ASAP programs 
at more airlines. We consider ASAP and its partner program 
FOQUA, which collects and analyzes data indicating potential 
risk, as standard issue. They are must-have items for airline 
safety.
    As of May 30th of this year, 27 ALPA representative 
airlines had ASAP. Six United States ALPA represented airlines 
do not have ASAP, and that is six too many. It is time to 
implement both of these programs at every airline. These safety 
programs which allow employees to identify threats will help us 
prevent accidents.
    One more issue belongs on the NTSB list. How many of you 
have handed your unaccompanied grandchildren to an airline or 
watched your spouse and kids board after you have dropped them 
off? You have placed an incredible act of trust, handing over 
your loved ones to total strangers who will take them in that 
narrow aluminum tube called a jet airplane to 30,000 feet, 
thousands of miles, trusting they will arrive safe and sound.
    When I was hired as a pilot with Continental Airlines, 
pilots had to have a minimum of 2,500 hours of flying time, 
hands-on experience. The captain beside me probably had at 
least 10,000 hours. Military training programs require several 
hundred hours of flight time and cost millions of dollars. That 
airline pilot supply pipeline is now history.
    Today, many pilots get the majority of their training in 
simulators. At some regional carriers, pilots need as few as 
200 flight hours, the absolute minimum to be a basic commercial 
pilot in a single engine airplane, and in just four to six 
weeks, they will become your first officer, second in command 
on a 50, 70, or 90 seat jet. These pilots will become captain 
in less than a year. These pilots are surely talented and 
dedicated, but that is no substitute for experience.
    Our demand is that airlines hiring pilots with flight 
experience less than the minimum of 1,500 flight hours required 
to become an airline transport pilot must receive increased new 
hire training programs at the regional carriers.
    I would like to thank you for the opportunity to testify. I 
will be ready to answer any questions.
    Mr. Costello. We thank you, Captain Prater.
    Ms. Friend.
    Ms. Friend. Thank you, Chairman Costello and Mr. Petri for 
giving us the opportunity to testify today.
    Flight attendants, as the first responders in the aircraft 
cabin and as airline safety professionals, are closely 
following a number of the issues raised by the NTSB in their 
Most Wanted Aviation Transportation Safety Improvements. The 
NTSB has done a good job in identifying many vital and 
important issues needing improvement, and we applaud their 
efforts.
    Today, however, I would like to focus my testimony on the 
issue of fatigue. Human fatigue has been a longstanding concern 
in aviation accident and incident investigative reports. Based 
on these concerns, research has been done on pilot and 
maintenance fatigue.
    We are here today to tell you that the industry must 
acknowledge that flight attendant is also a very real and 
serious concern. We believe that the NTSB's most wanted 
recommendation setting working hours for flight crews and 
aviation mechanics, based on fatigue research, circadian 
rhythms and sleep and rest requirements is flawed because it 
does not include the need to address flight attendant fatigue.
    Multiple studies have shown that reaction time and 
performance diminishes with fatigue, an unacceptable situation 
for safety and security sensitive employees. Flight attendants 
are required to be on board to conduct aircraft emergency 
evacuations when they are necessary. In addition, they are in-
flight first responders who are trained to handle in-flight 
fires and manage medical emergencies including CPR and the use 
of external defibrillators.
    Furthermore, since September 11th, the security 
responsibilities of flight attendants have greatly increased. 
It has become even more important for flight attendants to be 
constantly vigilant of the situation in the aircraft cabin and 
aware of their surroundings at all times, and inability to 
function due to fatigue jeopardizes the traveling public and 
other crew members. An error caused due to flight attendant 
fatigue can lead to a tragic loss of life in the event of an 
in-flight emergency or during an evacuation.
    Flight attendant fatigue has already played a role in some 
incidents. For example, in 1995, an ATR-72 experienced the loss 
of the rear cabin entry door during the takeoff climb. The 
flight crew was able to circle around and land safely. The 
aircraft received minor damage, and one flight attendant 
received minor injuries.
    The probable cause of the incident was the flight attendant 
inadvertently opening the door in flight due, in part, to 
flight attendant fatigue. The flight attendant estimated that 
she had approximately five hours of sleep the night before the 
incident flight. Also contributing to the incident was a change 
in the design of the door locking mechanism. If we add the 
human factors issue of fatigue-impaired judgment and then add 
the human factors design issue, the redesign of the door, we 
have a perfect human factors interaction error in this 
incident.
    Fatigue for flight attendants has been growing across the 
industry in recent years as our members are required to work 
longer duty days, cross multiple time zones and can have work 
shifts that are the equivalent of a midnight shift. Flight 
attendants do not have a regulatory hard limit on actual flying 
hours in any 24 hour period.
    Add to that a reduced rest provision that allows a rest 
period to be reduced to just eight hours off the aircraft. That 
has now become the norm. Our members are reporting that in an 
eight hour rest, they are getting only four to five hours of 
actual sleep.
    Flight attendants are so exhausted that they have informed 
us they have, in some cases, forgotten to perform critical 
safety functions including the arming of doors and some have 
even fallen asleep on their jumpseats.
    In 2006, the Civil Aeronautical Medical Institute, CAMI, 
issued their report on an initial study of the issue of flight 
attendant fatigue. Based on just limited research, the report 
concluded that flight attendants are experiencing fatigue and 
tiredness and, as such, this is a salient issue warranting 
further evaluation.
    Potential mishaps could have devastating ramifications. 
Fortunately, they have not because of the current overall low 
number of accidents. Regulatory agencies as well as the NTSB 
must further investigate and recommend changes to address 
flight attendant fatigue before a serious incident happens.
    To ensure safety of the entire transportation industry as a 
whole, we must look at all workers that could have an effect on 
the survival rate of passengers, not just the pilot who 
operates the aircraft or the maintenance personnel that fix a 
broken part. We are, after all, operating the equipment that 
fights fires, provides medical first response, and helps with a 
speedy evacuation. To say that flight attendant fatigue should 
not be a concern or that it is not as important because we are 
not the sole factor that could cause an accident or that we 
don't operate a moving vehicle is to acknowledge that saving 
passenger lives doesn't matter.
    Again, thank you, Chairman Costello and the Committee, for 
holding this hearing, and I look forward to answering any 
questions.
    Mr. Costello. We thank you, Ms. Friend, and the Chair now 
recognizes Mr. Coyne.
    Mr. Coyne. I know I am standing between you and lunch, a 
dangerous spot. I will try to go as quickly as I can.
    I submit my testimony, but I do want to briefly summarize 
it and focus the attention of the Committee on just how glad I 
am to be here because in past years, frankly, when this 
Committee and Congress more broadly addressed the question of 
aviation safety, more typically it was only on the area of 
airline safety. As you can see from the recommendations from 
the NTSB, all of these recommendations apply to the other 
segments of aviation as well as the airlines, and I am very, 
very grateful that the Committee has seen fit to have a 
representative from the non-airline segment of aviation.
    As you know, NATA, the National Air Transportation 
Association, represents over 2,000 aviation businesses across 
the Country, which employ over 100,000 people who provide 
ground service, who provide air charter, who operate FPOs, who 
operate aircraft maintenance companies and flight training. All 
of these small businesses, if you will, are an incredibly 
important part of our air transportation system.
    Hopefully without insulting any other members of the panel, 
frankly, I like to think of the NATA members as the backbone of 
aviation across the Country, and we are very glad to be 
included in this safety discussion.
    Of course, the five principle issues before the Committee 
today, the so-called unacceptable recommendation areas from the 
NTSB, are especially important to our industry as well. 
Briefly, I would like to summarize to say that of these five 
so-called unacceptable response areas of concern, our 
organization is generally supportive of the recommendations 
that have been made by NTSB in these five areas, but we have 
concerns with the application of some of the NTSB proposals 
particularly regarding the difficulty of retrofitting existing 
aircraft to comply with some of the suggested changes.
    Specifically, NATA supports the recommendations made by the 
NTSB in regard to the dangers posed by known icing conditions 
as well as recommendations to increase requirements for cockpit 
voice and data recorders and extend the duration of time 
recorded by this equipment. However, any FAA rules requiring 
technological improvements should remain what we call forward 
fitting and not apply to existing aircraft as such upgrades 
will disproportionately affect small general aviation aircraft.
    NATA, however, agrees with the recommendations regarding 
runway safety and believes that NTSB and FAA are focusing the 
correct amount of attention to these top concerns especially 
the runways at large commercial airports.
    NATA also contends that the best approach to runway safety 
must include human factors intervention to complement any 
technological improvements. NATA provides such human factors 
training to the industry on an ongoing basis through our Safety 
First Program.
    We are also supportive of the NTSB decision to include 
revised pilot work hour regulations and crew resource 
management training on the Most Wanted List. The association 
has participated in the drafting of a comprehensive proposal 
mentioned earlier at the FAA on the Part 135 ARC, and we were 
pleased to hear earlier this morning that they are going to be 
moving forward with those recommendations in an expedited 
manner.
    Let me also say, however, that the focus of the Committee 
must not continue to be just on flight safety but more broadly 
on ground safety. My good friend from the Flight Safety 
Foundation pointed out the need for looking at excursions as 
well as so-called runway incursions.
    But in addition even to excursions, there is a growing 
safety hazard at many airports on the ramp and on the taxiways. 
You will be surprised to know that so far this year there have 
been more fatalities on the ramps of airports in the United 
States than there have been in the commercial operation of 
those aircraft in the air. The ramps today are an incredibly 
crowded spot.
    We, of course, at NATA have launched something called the 
Safety First Program dealing with ramp and ground safety 
broadly for our FPOs and airline service employees. We have 
made tremendous strides, and we hope that the Committee and the 
NTSB and the FAA will continue to focus on this.
    In addition, I want to stress that the air charter segment 
is an incredibly important focus of this Committee's attention. 
Just yesterday, there was a tragic accident in Lake Michigan, 
involving six passengers on a medical flight. Of course, 
Senator Wellstone's flight tragedy was a charter flight.
    The charter industry has only recently become a priority at 
the FAA. Up until a few years ago, they only had one employee 
in the entire FAA, looking at charter safety. If I may 
compliment them, in the last year they have significantly 
broadened this.
    We in the industry as well have developed a lot of 
proactive, new charter safety recommendations, most especially 
our new focus on safety management systems. Just last week, we 
created the Air Charter Safety Foundation in cooperation with 
the Flight Safety Foundation. So we are very keenly interested 
in raising the bar for safety in air charter.
    Specifically, of course, the NTSB recommends more 
investment in crew resource management in the 135 world. We 
worked very hard with the FAA on the ARC to develop these 
recommendations, and we support your efforts and NTSB's efforts 
to have these crew resource management recommendations put into 
law as quickly as possible.
    I look forward to your questions. Again, thank you for 
letting me be here.
    Mr. Costello. We thank you, Mr. Coyne.
    Mr. Voss, a couple of questions, one concerning both your 
testimony and the reference Mr. Coyne made on not only runway 
incursions but excursions as well. I wonder for the record, and 
then I will get into issues concerning icing conditions. But I 
wonder for the record if you might elaborate, and then I am 
going to ask Mr. Coyne to as well for the record to talk about 
not only the runway incursions.
    I think we discussed it with the first panel but the point 
that you made about excursions and please elaborate.
    Mr. Voss. Thank you.
    Yes, runway excursions are a problem that occurs rather 
frequently, but again since it does not have normally severe 
consequences, it gets a fairly low amount of emphasis. However, 
when we step back and look at the problem, as I said, 29.4 
percent of the major damage to turbo jet and turbo prop 
aircraft, that is a really significant number, and it has been 
that number for quite a long time.
    This is related to a number of factors. It has to do with 
the fact that we could do a better job getting pilots 
information on whether or not they could stop. That involves 
airports, air traffic control, runway friction measurements. 
Also, we could do a better job mitigating with certain 
enhancements to the airport.
    There is also issues associated with having stabilized 
approaches and whether air traffic control is contributing to 
non-stabilized approaches.
    All these things appear to be underlying issues that need 
to be examined. Given the fact that this has such a high 
frequency of occurrence, it is a risk that needs to be treated 
because we should be dealing with both those things such as 
runway incursions that occur infrequently but have very serious 
consequences; as well, we should be looking at things that 
occur frequently which have less serious. Both sides of the 
risk spectrum deserve to be looked at.
    Thank you.
    Mr. Costello. Mr. Coyne, if you would like to comment and 
elaborate on your statement that more people have been killed 
on the ramp, please elaborate for the record.
    Mr. Coyne. Of course, just last month in Detroit, 
tragically, a young man was killed operating a tug pulling an 
airplane and had the misfortunate of colliding with an airplane 
and losing his life.
    We have seen the ramp accidents, frankly, start to decline 
with the implementation of the Safety First Program. You are 
familiar, of course, with Midcoast Airport there in Cahokia 
where they have fully implemented the Safety First Program and 
haven't had a single incident since they have done so.
    The importance on excursions cannot be overemphasized 
because this couples together the human actors of the cockpit, 
the air traffic control system, all coupling together plus the 
footprint on the ground.
    Take the example at Midway. You are familiar with just a 
year and a half ago when Southwest Airlines excursioned off the 
end of the runway. That is an example of how an excursion 
occurs when a pilot is faced with difficulties in terms of 
getting the airplane properly set up for the approach and the 
facility, the limitations of the airport itself, the runway, 
the length, especially of course in very difficult weather 
conditions they had there.
    We in the small airplane world are especially concerned 
about runway excursions. Frankly, big airplanes like Southwest 
tend to survive these excursions more successfully than small 
airplanes do. And so, we have situations as in Teterboro a year 
and a half ago where a small airplane, relatively small 
airplane went off the end of the runway and created loss of 
life.
    We are very, very concerned about this, and part of the 
issue is the size of the airport. There are, frankly, not 
enough 5,000 foot long runways in America today. We have too 
many airports where for one reason or another--in many cases it 
is just the opposition of the local community--we haven't 
lengthened the runway sufficiently to deal with the needs of 
the newer aircraft.
    Mr. Costello. Ms. Friend, I would like to give you an 
opportunity to elaborate on the fatigue issue.
    Every Member of this Subcommittee and, of course, of 
Congress flies frequently. I fly at least twice a week, and I 
make it a practice of talking to the flight attendants and 
asking them how long they have been working, where the flight 
originated, where they go from my destination if it is in St. 
Louis or it is DCA. It is not unusual for me to hear from a 
flight attendant that they had three or four hours sleep before 
their next turnaround and next flight.
    I think there is a misconception when they talk about eight 
hours rest. It is not eight hours rest. It is eight hours off 
the aircraft. I wonder if you might elaborate.
    Ms. Friend. That is correct, and I think Captain Prater 
referred to that as well. The eight hours incorporates the 
transportation time to and from the layover hotel, time to eat, 
preparation time for bed, preparation time in the morning, so 
all that. Then you have to find some time to sleep in the 
middle of that.
    Several years ago, working with our fellow unions 
representing cabin crew and flight attendants in this Country, 
we came to an agreement on some rest and duty times that were 
implemented for flight attendants. It was intended to be the 
absolute floor because all of us had the experience and the 
confidence that we could bargain better duty and rest times at 
the bargaining table in our collective bargaining agreements.
    As all of you are surely aware, we have just gone through 
probably the most difficult economic times in this industry. 
What we learned as a result of that and the tough bargaining we 
went through, as you can imagine, one of the things that our 
employers were looking for was increased productivity, and 
increased productivity results from flying more hours for an 
individual and reducing the overall head count.
    So what we learned is the floor that we worked on all those 
years ago is inadequate because that is now what we are living 
with, what was intended to be the floor.
    We did, Congress did in 2005, in response to our request, 
fund and direct the FAA to begin a study on the issue of flight 
attendant fatigue. The FAA gave the study to CAMI which is 
fine, but they only gave CAMI six months to complete the study. 
After restricting CAMI's time to six months, they then took an 
entire year to themselves to review the results of the initial 
study that CAMI had done.
    What CAMI's initial study came back with, and the study was 
very limited. It involved really a review of existing 
literature worldwide. They recommend a further, more in-depth 
study be carried out. We are hoping to get that additional 
study funded this year so that we can get a better 
understanding on exactly what is needed to alleviate this 
increasing fatigue among flight attendants.
    Mr. Costello. I thank you, and the Chair now recognizes the 
Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much.
    I wonder, Mr. Coyne, if you could talk a little bit about 
the impact, if any, of the new roll-out of very light jets on 
safety and congestion at airports and on the ramps.
    Mr. Coyne. Of course, the first two manufacturers of so-
called very light jets or VLJs, Eclipse and Mustang, have now 
completed their FAA certification, and those aircraft are in 
fact being delivered to customers at a relatively slow rate 
right now. My guess is that at the end of the year there may be 
as many as 50 of these airplanes in the hands of customers, 
perhaps next year another several hundred.
    However, I think in the immediate, there has been a bit of 
overhype of the impact of this. Small aircraft have been around 
for years and years, decades. In fact, small fast aircraft have 
been around for decades. The Citation, the first small private 
jet, when it first came out, really wasn't much bigger than 
these VLJs and essentially operates in the same way in the 
airspace with single pilots often and relatively high speeds 
over 350 knots. That is what we are expecting to see in the VLJ 
market but just a more dramatic and, we think, healthy growth.
    The key issue here, as it has been from a safety point of 
view, as it has been with small aircraft in the past and 
especially owner-flown aircraft, is for training to be 
advanced. We think that the industry is as committed to 
training these new pilots as they ever have. Of course, most 
often the pilots are not literally new pilots. They are pilots 
with thousands of hours of experience in other aircraft.
    But the training in these new aircraft is paramount. We in 
our industry, of course, are working with the charter community 
to make sure that programs exist, especially safety management 
systems exist in the charter operators of these aircrafts so 
that the training of their pilots is equal to or surpasses the 
training that airline pilots get.
    Mr. Petri. In your testimony, I think you referred to the 
concept of a safety management system. I wonder if you could 
elaborate on it a bit and how it affects the operation of 
participating companies.
    Mr. Coyne. We happen to believe that the safety management 
system--and thank you for that question--is one of the most 
important things that is occurring in the private sector in 
aviation.
    The concept of safety management system, it is not that 
hard to understand. It is essentially within an organization, 
creating a mechanism, a management mechanism to ensure that 
every single person in the organization, whether it is a huge 
airline or a five employee charter business, that every person 
in that organization understands that managing safety is their 
responsibility. It is not somebody else's responsibility. It is 
their responsibility.
    They create in that company. It is a company-focused 
activity, and in the company, they create a mechanism for 
managing safety just like they have a system for managing their 
checking account. Of course, it is important to understand, 
like a financial management system in a company, it is much 
more than just having a checking account and balancing your 
checkbook.
    So too in safety management, it is much more than just 
having a checklist when you are about to take off. It really 
invests in the whole organization through a series of audits, 
constant training and data collection, trying to look in the 
business to collect data that you can use to monitor whether 
you are meeting your safety targets.
    Frankly, the SMS world got started in the military over 40 
years ago. The airlines, of course, moved into it I think 
probably 25 years ago or longer. Now it is finally, if you 
will, getting into the charter segment of aviation, and this is 
really an important development because these companies 
historically don't have the resources to invest in safety 
personnel that the airlines might have had.
    They are developing through the help of computers and 
technology and the internet. They are developing the resources. 
No matter how big or small their company is, they are 
developing the resource to create the same kind of professional 
safety management structure that has helped contribute to the 
safety record in the airline industry for the past 20 or 30 
years.
    We are very excited about it. We have the help of the FAA 
to help launch many of these SMS training programs, and we hope 
over the next year, especially with the launch of our new Air 
Charter Safety Foundation, that SMS will become a requirement 
literally in the United States for Part 135 as it is already in 
Canada.
    Finally, I should quickly say that SMS is also being used 
by ground companies, FPOs and others on the ground, who are 
concerned about safety on the ramp, and we have been 
implementing that through our Safety First Program for over 
five years now.
    Mr. Petri. Thank you.
    Mr. Costello. Thank you.
    The Chairman now recognizes the distinguished Chairman of 
the full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman.
    I want to thank this entire panel and welcome you to the 
Committee. Along with the Chairman and Ranking Member, we 
greatly appreciate your contribution to safety. To those such 
as Ms. Dunham who is an advocate for safety and with personal 
experience, you understand the stakes that await us and are 
before us in every issuance of rulemaking and every action 
taken by the regulatory agencies as well as the operating 
companies, the airlines themselves.
    Ms. Friend, it took 14 years of wheedling, cajoling, 
pressuring, asking, hearings conducted in this committee room 
to press the FAA to begin a rulemaking, and then it took an act 
of Congress to get it enacted and finally promulgated, even 
after the act of Congress, took us a couple of years of your 
work--you, the flight attendants organization, and Members of 
this Committee on both sides of the aisle--to publish a rule in 
1996.
    Now that law, it is two pages of printed documentation, 
says:
    No certificate holder may assign a flight attendant to a 
scheduled duty period of more than 14 hours--and then a number 
of other limitations--14 hours but no more than 16 hours if the 
certificate holder has assigned to the flight or flights in 
that duty period at least one flight attendant in addition to 
the minimum flight attendant complement.
    Are they doing that?
    Ms. Friend. Yes, they are.
    Mr. Oberstar. Certificate holder may assign a flight 
attendant to a period of more than 16 hours but no more than 18 
hours if the certificate holder has assigned to the flight or 
flights at least two flight attendants in addition to the 
minimum flight attendant.
    Are they doing that?
    Ms. Friend. Yes.
    Mr. Oberstar. Are they in compliance?
    Ms. Friend. Yes, they are in compliance.
    Mr. Oberstar. My guess is they wouldn't be if we hadn't 
written it into law.
    Are they complying with the scheduled duty period of more 
than 18 but no more than 20 hours if the duty period includes 
one more flights that land or take off outside the 48 
contiguous states and the District of Columbia and so on? Are 
they in compliance with that?
    Ms. Friend. Yes.
    Mr. Oberstar. The problem is that the economic pressure on 
the marketplace, fewer aircraft, one-fifth fewer aircraft than 
the fleet we had prior to September 11th, the pressure on the 
airlines in the marketplace to operate those aircraft more 
continuously, keep them more in service puts pressure on flight 
deck crew, Captain Prater, and on the cabin crew, resulting in 
the situations that you have described for us: inability to 
function due to fatigue, impaired judgment.
    The eight hours rest doesn't really mean eight hours of 
sleep. Often times it buys you only four or five hours of 
sleep.
    There is flight time and there is duty time. Flight time, 
we finally caused, through this Committee's work, the FAA to 
write a definition into law of when flight time begins and when 
it ends, when the brake is released and when the brake is 
applied at the end of the flight. But then surrounding that, 
encapsulating that is duty time, and that is both for the 
flight deck crew and the cabin crew.
    Under what circumstances does that time come to be 
expanded?
    Ms. Friend. Sir, we both have comments.
    Mr. Oberstar. You both speak for the same time.
    Ms. Friend. It comes to be expanded in what we fondly refer 
to as irregular operations where the schedule may be built 
within the correct parameters and circumstances arguably beyond 
the control of the operator prevent the aircraft from being put 
on the ground in the proper place within those time frames.
    Our bigger problem is with the rest provisions that were 
part of that laborious and painful process that you described 
in that there is a provision in the rest to reduce the rest 
time down to eight hours. But it was intended to be on an 
exception basis to accommodate irregular operations whether it 
be weather or air traffic control delays, things that we really 
can't control which is now being used not as an exception to 
the rule but as regular scheduling practices. That is really 
the problem that we are having.
    Mr. Prater. You start to find that time is defined 
differently in the airline industry. Some of the practices are 
to flight plan, schedule a flight just below eight hours even 
though that flight couldn't, on its best day, be flown under 
eight hours as a way of not exceeding the need for two pilots. 
New York to Frankfort, that flight will go over eight hours day 
in and day out, but it is always scheduled for 7 hours and 55 
minutes.
    We see a few other practices like that that come to our 
attention. One of the most egregious is the scheduling of 
reserve crew members. We heard this morning from the FAA that 
personal responsibility for mitigating fatigue should be 
considered.
    Well, let me tell you a practice of telling a pilot that he 
is going to go on duty at 4:00 a.m. in the morning. So he or 
she goes to sleep maybe at 8:00 the night before. At 4:00 a.m., 
they receive a call saying, oh, all of the morning flights are 
covered. You are now released to your nine hours of rest. Be 
ready to go back to work at 3:00 this afternoon and oh, by the 
way, we are going to schedule you for an 8:00 flight to London 
and you will be on duty for 15 hours.
    This double use of crew members, you cannot prepare for 
those types of situations. That is why we need more regulatory 
efforts to control those types of situations.
    Thank you.
    Mr. Oberstar. Is that situation extant because there are 
not enough flight crews to call upon to manage the aircraft, 
that is, you don't have enough pilots?
    Mr. Prater. The pilot staffing has been cut to the bone 
just like many other employees, whether it is service, whether 
it is flight attendants, whether it is mechanics. We have seen 
that reduction of the force. While we have seen maybe fewer 
airplanes in the fleet, we see a lot fewer employees to service 
even more passengers.
    So, yes, we are seeing trying to fly a full schedule with 
less pilots. That is forcing longer days, more hours in the 
work month, more hours in the year, and that is the effects of 
the last five years for what we are seeing.
    The FARs do not adequately protect the traveling public 
from having a tired pilot, a tired flight attendant, a tired 
mechanic.
    Mr. Oberstar. Ms. Friend, I think the same situation 
pertains in the flight attendant crewing of aircraft.
    Ms. Friend. That is correct. It is a question of the 
employers' efforts to increase productivity, getting more work 
out of a fewer number of employees, and that was in response to 
their economic crisis.
    Mr. Oberstar. Captain Prater, also as you said in your 
testimony, there is no limit on the number of times a month 
that lengthy duty days may be assigned. Do you think that we 
ought to amend the existing laws and impose limits?
    Mr. Prater. When we went through the exercise back in 1995 
and 1996 and some of the proposals are still sitting, gathering 
dust on one of the FAA shelves, it was because the industry and 
the unions and the FAA couldn't agree.
    Mr. Oberstar. That was before September 11th.
    Mr. Prater. That is correct, sir.
    Mr. Oberstar. Yes, yes.
    Mr. Prater. We have asked and we have told the FAA that we 
were coming back because of our experience, the reports of 
those 60,000 pilots telling us. I am not telling them. They 
have been telling me: We have got to do something. We have lost 
the contractual rights. Therefore, if we can't move it through 
the FAA, we have to come to Congress and ask for assistance.
    Mr. Oberstar. Your point, I think, is well stated. The 
issue is not whether to change the rules but how much to reduce 
the maximum flight and duty times. If that means that airlines 
have to hire more crew, then they ought to be doing it in the 
interest of safety or the time will come when people say it 
isn't safe to fly.
    Mr. Prater. We will do everything in our power to make sure 
that day doesn't come.
    Mr. Oberstar. We heard from NTSB and also from FAA about 
technology, the runway status lights system. This FAA is so 
full of acronyms. I just hate to use them. I spell them out for 
my own benefit as well as for others I am talking to.
    ASDE-X and a final runway approach signal, what is your 
reaction to the effectiveness of that technology giving pilots 
information in the flight deck about the situation on the 
ground?
    Mr. Prater. We are certainly not averse to new 
technological approaches to solving problems, but we think 
sometimes the concentration ought to be on the more basic, back 
to the basics approach, whether it is better lighting systems 
on the ground, stop signals to prevent a runway from being 
crossed while it is being used by an approach.
    Yes, technology can help. The systems that have evolved 
over the years have provided us with much better separation 
from midair collisions, and it can be done with the ground 
control.
    But we see some of the most basic things like making sure 
there is enough controllers in the cab to make sure a runway is 
clear before crossing us, to make sure that someone is 
responsible for one runway approach instead of two, three or 
four crossings downfield. In low visibility situations, the 
technology helps greatly.
    One of the best things we can all do sometimes, even though 
aviation is supposed to be fast, is to slow down, is to not 
push the airplanes right to their limits, not to push the 
maximums. Hitting, if you will, the final approach marker four 
or five miles from touchdown at speeds where you have to do 
everything you can to slow down to make that landing. Those are 
all techniques used by the industry, by the FAA to try to 
mandate, to get as much capacity into the system.
    We believe a few more controllers in the tower would be a 
good thing especially if they are rested controllers.
    Mr. Oberstar. I couldn't agree with you more on that score 
because as we all have learned over the years, on final, it is 
not how much runway is behind you but how much runway is left 
ahead of you.
    Mr. Chairman, you, I am sure, have questions and Mr. Petri 
as well. I will withhold at this point.
    Mr. Costello. Mr. Petri, do you have further questions?
    Mr. Petri. I would like to thank the panel.
    Mr. Costello. Actually, Mr. Chairman, I think that we have 
covered a lot of the issues.
    I do have some comments that I want to make. But before I 
do, let me say that our colleague from Kentucky, Ben Chandler, 
submitted written questions not only for the first panel but 
for you as well, and we will be getting those to you for a 
written response to Mr. Chandler.
    I said to the first panel and will say to you that this 
will not be the last hearing that we will hold concerning not 
only the NTSB's Most Wanted List but other safety issues. I 
believe it is our responsibility, this Subcommittee's 
responsibility to make certain that we hold the FAA and other 
agencies that we have jurisdiction over accountable.
    I believe that while we have made some progress in certain 
areas, it has taken far too long as I think Ms. Dunham has 
pointed out in her written testimony.
    Ms. Dunham. May I say something?
    Mr. Costello. She looks like she wants to jump in right 
now, so I am going to recognize you in just one second.
    But it has taken far too long. It is our responsibility to 
make certain that the FAA takes action, and when they do not, 
we need to hold them accountable. I want to assure you, as I 
did the FAA, that if they think is going to be the last hearing 
and they can get by today and go back to business as usual, 
that is not going to happen.
    Ms. Dunham?
    Ms. Dunham. I am glad to hear that.
    I think the purpose of the hearing was to discuss these six 
NTSB recommendations. Collectively, these have been studied for 
about 150 years. I totaled it up. We are concerned about moving 
action forward, and we are asking Congress for your help. When 
the technology is there, when the money is there, the safety 
initiatives should move forward.
    One good example right back where we started, the most 
important tool in an air crash investigation is the black box. 
We are recommending upgraded recorders. The FAA has delayed 
upgraded black boxes for decades.
    We are requesting that Congress respond with legislation 
that would mandate dual flight data recorders for the front and 
the rear and a deployable recorder in the rear to ensure that 
the black box survives and have a rapid response for the cause 
of the disaster. The military has had deployable recorders for 
years. This would benefit everyone with the state of the art 
technology.
    You don't know the cause of the next aviation disaster. 
There will be suspect about terrorism. It is most important 
that we get this basic technology forward, and we are asking 
you for help.
    Flying is safe. Millions of people get where they are going 
every day, but we still average over one fatal crash a day in 
the United States. We shouldn't have aviation disasters as the 
only way to get people's attention.
    Thank you so much for saying that this isn't the last 
hearing.
    Mr. Costello. Well, thank you for your participation and 
all that you have done with the families that have been 
involved in your organization.
    Let me ask the other members of the panel if they have some 
final thoughts or comments before we go to a final round of 
questions and close the hearing.
    Mr. Voss?
    Mr. Voss. Thank you, Mr. Chairman.
    I think my only comment would be that it is important for 
us not just to pay attention to the accidents because there are 
very few accidents now.
    We are doing a great job looking forward. Safety management 
systems were mentioned repeatedly, FOQUA and ASAP systems also. 
Recording systems were mentioned repeatedly. I think that we 
are at a new age now where we need to be focusing on those 
proactive measures. I think there has been a strong consensus 
on the panel that they are all very important, and I would like 
to see more emphasis on that in the future.
    Thank you.
    Mr. Costello. Captain Prater?
    Mr. Prater. Yes, sir, I would like to roll right in on the 
SMS. We have seen safety management systems evolve through the 
government in Canada. We have done everything we can to protect 
the ASAP and FOQUA systems and develop those so that it can be 
a confidential way to report on yourself, to report what you 
see, even from the ramp driver, tug driver that might 
accidently hit an airplane. If he or she recognizes that and 
turns himself in, we might prevent an incident or even an 
accident.
    We have to develop those systems in the United States from 
the top down, from the CEOs right down to whatever employee is 
near an airplane. If they will do that, we are ready to move on 
those. But, again, I fear it will take a push by Congress to 
get the airline industry to fully adopt the SMS systems.
    Thank you.
    Mr. Costello. Ms. Friend?
    Ms. Friend. I would just thank you again, Chairman 
Costello, for your interest in our industry. We can use all the 
help we can get.
    Mr. Costello. Mr. Coyne?
    Mr. Coyne. I would like to thank you all. Mr. Chairman, I 
have appreciated your help and friendship, all the Members of 
the Committee over many years, and I am very happy to be here.
    I would like to just second one of the things that Mr. Voss 
said earlier, though, which is really important. The number of 
accidents is going down. The era, the 20th Century was a time 
when we could promote safety perhaps by just investigating the 
accidents.
    We really need a much more diagnostic environment now where 
we look at problems long before they are accidents, and that is 
why I think the safety management system process is so 
important because that is the only way for us to get the data 
we need. Of course, once we have the data, we can figure out 
what we need to do. The worst way to get data to create 
aviation safety is to get the data from an accident.
    Hopefully, with your help and others, we can get to a world 
where we never again have to wait for that accident to get the 
data we need.
    Mr. Costello. Chairman Oberstar?
    Mr. Oberstar. Thank you, Mr. Chairman.
    I thank the panel for their comments.
    In the spirit of safety which is aimed at preempting the 
next accident, Mr. Voss, I would like to ask you and Captain 
Prater whether you are noticing an increase in the number of 
minimum equipment list incidents aboard aircraft in this era of 
fewer aircraft, more pressure on existing aircraft to be flying 
more hours of the day and more outsourcing of maintenance.
    Are there more MELs?
    Mr. Voss. Thank you, but I think I would have to defer to 
Captain Prater on that one, and I am certainly interested in 
hearing the response to that question.
    Mr. Prater. Well, I hate to pass the buck, but what I will 
tell you is that I think it is a question that needs to be 
investigated.
    I can say that at the first rate operators, no, there has 
not been. They have been keeping the airplanes in the sky, and 
they have been keeping the maintenance going when the airplanes 
are on the ground. However, we have seen a tremendous economic 
pressure on some operators, and there is always at that point a 
concern about whether something gets fixed when it is noticed 
or is it put off for 24 or 72 hours.
    What I can commit is that we will survey all of our 
operators, all of our pilots to see if there is an increase. I 
believe that most of our operators are doing a good job in 
keeping the airplanes maintained.
    Mr. Oberstar. Ms. Friend, do you have a comment on that? 
No.
    Just for the record, a minimum equipment list is that 
equipment that is inoperative or non-functioning which is not 
essential to safety of flight. It means you can operate the 
aircraft, but you need to have a public announcement system and 
you can't fly it more than 24 hours without.
    What I have learned over the years is that there is a 
progression from MELs to major failures. I am very concerned 
about this, and I have asked the FAA to do a search of records 
and provide me with a report that I will share with Mr. 
Costello and Mr. Petri when we get that information on whether 
there is a progression of MELs.
    I just, in random flying, notice an increase. Thank you.
    Mr. Costello. I thank the Chairman.
    We thank all of you for your thoughtful testimony. We look 
forward to continuing to work with you on these important 
issues. Thank you.
    The Subcommittee is now adjourned.
    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
</pre></body></html>
